<html>
<title> - EXAMINING THE SPENDING, PRIORITIES AND THE MISSIONS OF THE BUREAU OF LAND MANAGEMENT AND THE U.S. FOREST SERVICE AND THE PRESIDENT'S FY 2012 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 EXAMINING THE SPENDING, PRIORITIES AND THE MISSIONS OF THE BUREAU OF 
  LAND MANAGEMENT AND THE U.S. FOREST SERVICE AND THE PRESIDENT'S FY 
                         2012 BUDGET PROPOSAL 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, March 8, 2011

                               __________

                            Serial No. 112-7

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-118 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                





















                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on Tuesday, March 8, 2011...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of  Utah...................................................     1
        Prepared statement of....................................     3
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona, Prepared statement of....................    57
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Abbey, Hon. Robert V., Director, Bureau of Land Management, 
      U.S. Department of the Interior............................    12
        Prepared statement of....................................    14
    Tidwell, Hon. Tom, Chief, U.S. Forest Service, U.S. 
      Department of Agriculture..................................     5
        Prepared statement of....................................     7



   OVERSIGHT HEARING ON ``EXAMINING THE SPENDING, PRIORITIES AND THE 
 MISSIONS OF THE BUREAU OF LAND MANAGEMENT AND THE U.S. FOREST SERVICE 
             AND THE PRESIDENT'S FY 2012 BUDGET PROPOSAL.''

                              ----------                              


                         Tuesday, March 8, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Young, Broun, Coffman, 
McClintock, Tipton, Labrador, Johnson, Grijalva, DeFazio, 
Sarbanes and Kildee.
    Also present: Representatives Gosar and Benishek.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. The Subcommittee will come to order. Apparently 
I am supposed to bang a gavel, wherever it went. It just got 
banged. The Chairman notes there is the presence of a quorum 
here, which under our rules is two.
    So the Subcommittee on National Parks, Forests and Public 
Lands is meeting today to hear the testimony on the spending 
priorities and the missions of the Bureau of Land Management, 
the U.S. Forest Service and the President's 2012 budget 
proposal. Under Committee Rule 4(f), opening statements are 
limited to the Chairman and Ranking Member of the Subcommittee 
so that we can hear from our witnesses more quickly. However, I 
ask unanimous consent to include any other Members' opening 
statements in the record if it is received by the clerk by 
close of business today. Hearing no objection, so ordered.
    I also ask unanimous consent that the gentleman from 
Arizona, Mr. Gosar, be allowed to join us on the dais and 
participate in the hearing. Once again, without objection, so 
ordered.
    I look forward to hearing from our witnesses, but before 
that, I recognize myself for an opening statement. I want to 
thank you for appearing before this committee to present your 
respective agencies' budget request. This is, of course, a 
challenging time for the Federal budget, just as it is for 
family budgets and millions of Americans. This year the House 
has decided to take the budget problem seriously. We know major 
changes are needed, and we cannot meet the challenge with the 
``business as usual'' approach.
    Last month the House passed a continuing resolution for the 
remainder of Fiscal Year 2011 that would cut $100 billion from 
the President's request level. EPA was cut by $3 billion, and 
some of their expansionist regulatory plans were specifically 
rejected.
    The Forest Service and BLM were not treated similarly. 
Under the House language, for the rest of the year, the funding 
for the Forest Service will be reduced by $38 million and for 
BLM by just under $23 million. The Wildlands Order affecting 
BLM was wisely rejected, thank goodness. It is a taste of 
things to come, Mr. Abbey. The Senate, though, has yet to act--
surprise, surprise--on a long-term current CR as we now begin 
consideration of our Fiscal Year 2012 budget.
    Locked up in the agencies that you run is a vast amount of 
land with an abundant array of resources that, if properly and 
productively managed, could make an enormous contribution to 
our well-being. These agencies that you run could provide 
secure domestic sources of energy, minerals, food, fiber and, 
if you follow prior congressional orders, good-paying jobs. 
Properly managed, these lands could provide a fair return to 
the western, resource, Hispanic communities that provide 
schools, place and services without the assistance of property 
taxes. And despite the thinking of some in our urban areas on 
the coast, these economic and national security benefits can be 
obtained, while at the same time increasing public recreation 
access and use, as well as preservation.
    So I look forward to hearing from you on your budget 
requests. From some of you, Mr. Tidwell, I look forward to 
hearing from you about gun ranges, cemeteries in Sardine 
Canyon, and perhaps even National Guard lands in Utah. But both 
of you have long careers in management of public multiple-use 
lands, and I want you to know, from working with the employees 
of your agencies at the local level, that there are a whole lot 
of professional, hard-working, reasonable people who work on 
the ground and report to you, sometimes without wide knowledge 
coming from Washington. So I ask you to let them know how much 
I do appreciate the work that they do on the ground.
    And with that, just two personal notes. First of all, you 
will notice on the slides above you the amount of land that is 
owned by the Federal Government. One out of every three acres 
is owned by the Federal Government, and your domain is actually 
93 percent in the West. We obviously have a great deal of 
impact by the decisions that you make. If it was reversed, that 
would be what the situation would be. I kind of like that 
picture myself.
    Let me ask one last personal note, if I could. I urge both 
of you to assist with what I think is air traffic safety 
concerns. Similarly when I fly back and forth between home and 
here, that is a nice 4-hour flight. I see a lot of movies, I 
read a lot of books, I read constituent mail, and I also read 
about the activities that you guys are doing. I have to admit 
when I read about these issues, I will read a couple of 
paragraphs and then pull out my pillow and scream in it and try 
to muffle the sound. I will read a few more paragraphs, and 
then I have to go to the bathroom and yell at the mirror. If 
not, I will hit some passenger that is there. So for the flight 
attendants and all those who fly Delta on Fridays and Monday, I 
am going to ask you not to do stupid stuff.
    With that, I conclude my testimony, and I recognize the 
Ranking Member for five minutes.
    [The prepared statement of Chairman Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Chief Tidwell and Director Abbey, I want to thank you for appearing 
before this committee to present your agencies' budget requests. As we 
all know, this is a challenging time for the federal budget just as it 
is for the family budgets of millions of Americans. This year the House 
has decided to take the budget problem seriously; we know major changes 
are needed and we cannot meet the challenge with a business-as-usual 
approach.
    Last month, the House passed a Continuing Resolution for the 
remainder of FY11 that would cut over $100 billion from the President's 
request level or $60 billion from what was enacted. EPA was cut by $3 
billion and some of their expansionist regulatory plans were 
specifically rejected.
    The Forest Service and BLM budgets were not similarly cut. Under 
the House language for the rest of this year, funding for the Forest 
Service would be reduced by $38 million and the BLM would take a $22.9 
million reduction. The Secretary's Wild Lands order affecting BLM was 
wisely rejected.
    Thank goodness for that.
    It is a taste of things to come.
    The Senate has yet to act on a long term current year CR as we now 
begin consideration of the Fiscal Year 2012 budget.
    Locked up in the agencies you run is a vast amount of land with an 
abundant array of resources that if properly and productively managed 
could make an enormous contribution to our well-being. The agencies you 
run could provide secure domestic sources of energy, minerals, food, 
fiber, and good paying jobs. Properly managed, these lands could 
provide a fair return to Western resource dependent communities that 
provide schools, police and services without access to property taxes. 
And, despite the thinking of some in urban areas on the coasts, these 
economic and national security benefits can be obtained while at the 
same time increasing public recreational access and use.
    So I look forward to hearing from you on your budget requests. Both 
of you have long careers in the management of public multiple use lands 
and I know from working with the employees of your agencies at the 
local level that there are many professional, hardworking and 
reasonable people who report to you. I ask you to let them know that I 
do appreciate the work they do. With that said, let us turn to the 
Ranking Member for an opening statement.
                                 ______
                                 

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman. Let me 
first congratulate you on your ascendancy to the Chair. We look 
forward to working with you, and look forward to your 
leadership on some very critical issues that this committee 
historically has undertaken, our public lands being the central 
piece of the discussion. So we will be having this in this 
session.
    Let me begin also by welcoming Director Abbey and Chief 
Tidwell to the Subcommittee. While I have questions on many of 
the line items in your budget request, I wanted to focus on the 
Land and Water Conservation Fund at the outset. The President's 
proposes an $87 million increase to the LWCF funding for the 
Forest Service and a $20 million increase for BLM. Overall, the 
Administration is seeking the full authorized amount of $900 
million for the program, while the Republican majority supports 
the lowest level of funding in history under H.R. 1.
    Many of our colleagues seem genuinely perplexed by the 
workings of this trust fund and its goals. To be clear, the 
program is funded almost entirely by revenue from oil companies 
drilling in Federal water. So the so-called cuts to LWCF do not 
save taxpayers money; they simply redirect oil company revenue 
to nonconservation programs.
    It is also inaccurate to call LWCF a land grab. The ability 
to acquire and manage sensitive parcels is a critical land-
management tool. The fund acquisitions are selected through a 
rigorous planning process, and the lands are only purchased 
from owners who are willing to sell. And when critical parcels 
are available, they should be acquired.
    Even as we work to meet existing maintenance needs, the 
current majority underfunded these agencies for a decade and 
would now use the maintenance backlog as a bar to planned 
acquisition. We can and we must do both. Historically, it has 
been during difficult times and economic hardship and war that 
we have turned inward to invest in the things which make our 
country strong at its core. Healthy, productive lands and 
forests are an investment that will pay dividends long after 
our current challenges have been solved.
    I want to thank you both for being here. I look forward to 
your testimony.
    Chairman, I yield back.
    [The prepared statement of Mr. Grijalva follows:]

       Statement of The Honorable Raul Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Let me begin by welcoming Director Abbey and Chief Tidwell to the 
subcommittee.
    While I will have questions on many of the line items in your 
budget requests, I wanted to focus on the Land and Water Conservation 
Fund at the outset.
    The President proposes an $87 million increase in LWCF funding for 
the Forest Service and a $20 million increase for the BLM. Overall, the 
Administration is seeking the full, authorized amount of $900 million 
for the program while the Republican majority supported the lowest 
level of LWCF funding in history in H.R. 1. Many of our colleagues seem 
genuinely perplexed by the workings of this trust fund and its goals.
    To be clear, the program is funded almost entirely by revenue from 
oil companies drilling in federal waters; so-called ``cuts'' to LWCF do 
not save taxpayer's money--they simply redirect oil company revenue to 
non-conservation programs.
    It is also inaccurate to call LWCF spending a ``land grab.'' The 
ability to acquire and manage sensitive parcels is a critical land 
management tool. LWCF acquisitions are selected through a rigorous 
planning process and the lands are only purchased from owners who want 
to sell.
    And when critical parcels are available, they should be acquired, 
even as we work to meet existing maintenance needs. The current 
Majority underfunded these agencies for a decade and would now use the 
maintenance backlog as a bar to land acquisition. We can and we must do 
both.
    Historically, it has been during difficult times, economic hardship 
and war, that we have turned inward to invest in the things which make 
our country strong at its core. Healthy, productive, public lands and 
forests are an investment that will pay dividends long after our 
current challenges have been solved.
    Thank you both for being here and I look forward to your testimony.
                                 ______
                                 
    Mr. Bishop. I thank the gentleman from Arizona for his 
testimony.
    We will now hear from--and occasionally you are accurate, 
too. So that is OK.
    Mr. Grijalva. Twice.
    Mr. Bishop. We will now hear from our witnesses. We have 
The Honorable Tom Tidwell, the Chief of the U.S. Forest Service 
in the U.S. Department of Agriculture; and Robert Abbey, who is 
the Director of the Bureau of Land Management, U.S. Department 
of the Interior.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record. So we ask you to keep 
your oral comments to five minutes as outlined in the 
invitation letter that you received and according to our 
Committee Rule 4(a).
    The microphones, as you know, are not automatic. So please 
press the button when you are ready to begin. And you 
understand, I am sure, from your various trips here the light 
system. The yellow light will appear once you have gone for 
four minutes. And then when the red light appears, we would ask 
you to conclude your statements there. With that, I appreciate 
the testimony.
    Do either of you care who goes first? Well, Mr. Tidwell, do 
you want to start it off with this, and then we will ask Mr. 
Abbey to go after you?

  STATEMENT OF TOM TIDWELL, CHIEF, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Well, thank you. Mr. Chairman, members of the 
Subcommittee, it is a privilege to be here today to discuss the 
President's 2012 budget request for the Forest Service.
    Mr. Chairman, I want to thank you for acknowledging the 
hard work that our employees do out in the field. I do 
appreciate that, and I will make sure that I can share your 
comments. I, too, appreciate the support this committee has 
shown the Forest Service in the past, and I look forward to 
working with the Subcommittee to provide more of the things 
that the American public want and need from our Nation's 
forests and grasslands.
    The President's budget is designed to support the 
Administration's priorities for maintaining and restoring the 
resiliency of America's forests. Additionally, the budget 
request reflects our commitment to fiscal restraint, with 
significant reductions to ensure that we are spending 
efficiently and focusing on the priorities of the American 
people. Our budget supports these priorities through four key 
objectives.
    First, we want to restore and sustain the forest and 
grasslands by increasing the collaborative efforts to build 
support for restoration activities that create jobs.
    The budget requests full funding for the Collaborative 
Forest Landscape Restoration Fund. It increases the emphasis on 
protecting and enhancing watershed health with the request of 
80 million for a new Priority Watershed and Job Stabilization 
Initiative to fund large-scale projects.
    It proposes a revised integrated resource restoration 
budget line item that will align our budget structure with the 
work that we are doing. This will facilitate using an 
integrated approach to developing project proposals that will 
result in more work, more jobs.
    We will continue to track the traditional targets, such as 
board-feet, miles improved, but we will also track the overall 
outcomes of restoration and watershed improvements so that we 
can show that we are making a difference in a landscape scale.
    We will also continue to incorporate climate change 
adaptation and mitigation strategies to increase the 
ecosystem's resistance to increasing frequency--to the 
increasing frequency of disturbances like fire, insect and 
disease outbreaks, invasives, flood and drought.
    The second objective, the budget request also provides 
funding for wildlands fire suppression. This includes a level 
of preparedness that will continue our success to suppress 98 
percent of the wildland fires during initial attack. It also 
includes a realignment in preparedness and suppression funds 
and more accurately displays costs. It provides for the FLAME 
fund to increase accountability and transparency for the cost 
of large fires. And further, to reduce the threat of wildfire 
to homes and communities, we want to do more work, more of the 
hazardous fuel work in the wildland-urban interface.
    The third objective, we want to increase support for 
community-based conservation with America's Great Outdoors 
Initiative. We will do this by helping America to reconnect 
with the outdoors by increasing conservation education and 
volunteer opportunities through our youth programs, building on 
the success of our 28 Job Corps centers by supporting the 
creation of a 21st Century Conservation Service Corps program 
that will help build skills and provide work experiences for 
our youth. We want to continue to work with the States to use 
our State and private forestry programs to promote conservation 
and help keep private forests forested.
    We are also requesting an increase in LWCF funding in our 
Forest Legacy Program to use conservation easements and land 
acquisition to protect critical forests and acquire public 
access.
    And our fourth objective is to further support economic 
opportunities in our rural communities by supporting the 
recreational opportunities that not only add to the quality of 
our lives, but support these communities over $13 billion in 
annual spending by the recreation visitors.
    We want to encourage the biomass utilization and other 
renewable energy opportunities and explore ways to process the 
oil and gas applications and energy transmission proposals more 
efficiently.
    And then last, we are proposing a framework for a 5-year 
reauthorization of the Secure Rural Schools Act, with 328 
million in our budget request to fund the first year. Now, we 
want to work with the Subcommittee to consider options for 
mandatory funding for this proposal and also for the overall 
legislative proposal. Our goal is to increase collaborative 
efforts, to encourage greater public involvement and management 
of their national forests and grasslands.
    To maintain and restore healthy landscapes, we need to take 
care of the ecosystem, but we also need to support healthy, 
thriving communities and provide jobs in our rural areas. 
Again, thank you for the opportunity to address the 
Subcommittee, and I look forward to answering your questions.
    Mr. Bishop. Thank you, Chief Tidwell.
    [The prepared statement of Mr. Tidwell follows:]

         Statement of Tom Tidwell, Chief, U.S. Forest Service, 
                     U.S. Department of Agriculture

    Mr. Chairman and members of the subcommittee, it is a privilege to 
be here today to discuss the President's Budget request for the Forest 
Service in fiscal year (FY) 2012. I appreciate the support this 
subcommittee has shown the Forest Service in the past, and I look 
forward to working together in the future to ensure that stewardship of 
our Nation's forests and grasslands continues to meet the desires and 
expectations of the American people. I am confident that this budget 
will allow the Forest Service to support this goal, while also 
reflecting our commitment to fiscal restraint and ensuring we are 
spending efficiently.
    As the Secretary testified on March 1, 2011, we need to take some 
serious steps to reduce the deficit and reform government so that it's 
leaner and smarter for the 21st century. The FY 2012 budget USDA is 
proposing reflects the difficult choices we need to make to reduce the 
deficit while supporting targeted investments that are critical to 
long-term economic growth and job creation. To afford the strategic 
investments we need to grow the economy in the long term while also 
tackling the deficit, this budget makes difficult cuts to programs the 
Administration cares about. It also reflects savings from a number of 
efficiency improvements and other actions to streamline and reduce our 
administrative costs. It looks to properly manage deficit reduction 
while preserving the values that matter to Americans.
    A healthy and prosperous America relies on healthy forests and 
grasslands and the benefits they provide: clean air and water, carbon 
storage, renewable energy, food and fiber, fertile soils, wildlife 
habitat, and recreation opportunities. The Forest Service delivers 
incredible value to the public by protecting and enhancing these 
benefits through forest health restoration, research, and financial and 
technical assistance to partners. Our national forests and grasslands 
help to sustain 224,000 jobs in rural areas and contribute an estimated 
$14 billion to the Gross Domestic Product (GDP) each year through 
visitor spending alone.\1\ In addition to managing 193 million acres on 
155 national forests and 20 grasslands in 44 States and Puerto Rico, 
the Forest Service helps improve stewardship of lands outside the 
National Forest System. The agency partners with and provides technical 
assistance to other Federal agencies as well as Tribal, State and local 
governments; private landowners; and non-profit organizations for the 
betterment of the Nation's forests and grasslands. Furthermore, the 
agency is a leader in cutting-edge research on climate change, 
bioenergy, wildfire management, forest pests and diseases, ecological 
restoration and other conservation issues. The agency works to 
efficiently maximize limited resources and create a high return on 
investment for the American taxpayer.
---------------------------------------------------------------------------
    \1\ USDA Forest Service. National Visitor Use Monitoring Results. 
http://www.fs.fed.us/recreation/programs/nvum/
---------------------------------------------------------------------------
    The FY 2012 President's Budget request for the Forest Service 
totals $5.1 billion in discretionary appropriations, a $178 million 
decrease from the FY 2011 annualized continuing resolution, and a $239 
million decrease from the FY 2011 President's Budget request. This 
decrease is achieved through several program re-combinations that 
streamline operations and increase efficiency and through major 
reductions in programs, including Roads, Facilities and National Fire 
Plan programs and associated State and Private Forestry Programs. In 
addition, the FY 2012 budget includes $44 million in targeted cost 
saving measures for the Forest Service through reduced travel and 
improved acquisition management procedures. These actions will allow us 
to focus limited resources on programs where we can achieve the 
greatest impact and that are of highest priority to the American 
people. Our budget priorities respond to the public's desire to make 
smart Federal investments that will allow us to pass on to future 
generations the beauty, wildlife, water and natural resources that we 
have today.
    The FY 2012 budget for the Forest Service supports President 
Obama's America's Great Outdoors (AGO) initiative, the goals of the 
USDA's strategic plan, and Secretary Vilsack's ``all-lands vision.'' It 
aims to maintain and enhance the resilience and productivity of 
America's forests through four funding priorities:
Enhancing Water Resources, Responding to Climate Change, Community-
        based Stewardship, and Jobs in Rural Communities.
    Climate change, severe wildfires, disease and pests have all 
contributed to declining forest health. With the current forest health 
crisis threatening the future of our forests, ecological restoration 
\2\ is a key component to our FY 2012 strategy. We need to ensure that 
our forests are resilient in the face of future uncertainties. To most 
effectively address this forest health issue, we must work across 
landscapes and ecosystems, as well as across ownership boundaries. The 
Forest Service also aims to create jobs in rural areas, more actively 
involve local communities in caring for their land, and improve access 
to natural areas. Ensuring the sustainability of rural communities and 
increasing community collaboration in natural resources management are 
critical to the success of restoration efforts and the continued 
provision of goods and services from forest ecosystems. Finally, using 
forest biomass byproducts from ecological restoration activities as a 
source of renewable energy can help enhance U.S. energy security, 
economic opportunity, environmental quality, and global 
competitiveness. In FY 2012 we aim to strengthen biomass utilization 
efforts through our work with other agencies and our programs that 
encourage market development for woody biomass.
---------------------------------------------------------------------------
    \2\ By restoration, we mean the process of assisting the recovery 
of resilience and the capacity of a system to adapt to change if the 
environment where the system exists has been degraded, damaged, or 
destroyed. Ecological restoration focuses on reestablishing ecosystem 
functions by modifying or managing the composition, structural 
arrangement, and processes necessary to make a terrestrial and aquatic 
ecosystem sustainable and resilient under current and future 
conditions.
---------------------------------------------------------------------------
    Our four key funding priorities highlight how we as an agency are 
continually working to ensure that we are responding to the needs of 
the American public.
Enhancing Water Resources
    One of the most important services that the American people receive 
from forested landscapes is the provision of clean and abundant 
drinking water. An adequate supply of clean water is integral to the 
health and prosperity of the United States. Over half of the Nation's 
freshwater supply originates on public and private forest lands, and is 
the source of drinking water for more than 200 million people. The 
National Forest System (NFS) alone provides fresh water to 
approximately 66 million people, or one in five Americans. In addition, 
healthy rivers, lakes and streams are crucial to sustaining aquatic 
life, supporting terrestrial ecosystems, and providing high-quality 
recreation opportunities. Maintaining an adequate supply of clean water 
will be one of the biggest challenges of the 21st century as our 
forests and communities continue to deal with climate change, severe 
wildfires, invasive pests, severe storm events, and development 
pressures.
    In June 2009, the Administration implemented the High-Priority 
Performance Goal (HPPG) initiative, asking agency leaders to deliver 
results on a limited number of priorities that are of high value to the 
American public. Ensuring that our national forests and private working 
lands enhance our water resources and are conserved, restored, and made 
more resilient to climate change is a USDA HPPG. In order to achieve 
this goal, the Forest Service in collaboration with the Natural 
Resources Conservation Service (NRCS) and Farm Services Agency (FSA) 
will be working to implement high-impact targeted practices that are 
expected to have the greatest impact on protecting water resources on 
over 6 million acres in priority landscapes. These priority areas 
include targeted acreage on national forests and private working lands 
in the Chesapeake Bay Basin, Great Lakes, Mississippi River Basin/Gulf 
of Mexico, and California Bay Delta/Sierras.
    The Integrated Resource Restoration (IRR) budget line item, first 
proposed in the FY 2011 budget request, will allow us to effectively 
integrate interdisciplinary restoration treatments that will protect 
and improve our water resources. The FY 2011 budget request proposed to 
combine the Forest Products, Vegetation and Watershed Management, and 
Wildlife and Fisheries Management budget line items from previous 
years. In addition to these programs, Collaborative Forest Landscape 
Restoration, Legacy Roads and Trails, road decommissioning, and post-
fire Rehabilitation and Restoration have also been added to IRR for the 
FY 2012 request. Moreover, the portion of hazardous fuels management 
funding work outside the wildland urban interface (WUI) has also been 
added to IRR for the FY 2012 request as the agency works toward 
restoring historic fire regimes on the non-WUI portion of NFS lands. 
Restoration projects require the integration of various stewardship 
activities. Thus, combining these programs will allow us to use 
resources more efficiently and will also create the vehicle that will 
allow the Forest Service to move toward restoring watersheds as a top 
priority. A new watershed condition metric will be used to evaluate 
improvements in watershed health using a national standard and provide 
clear accountability for the IRR program area. Specifically, we are 
proposing an $80 million Priority Watershed and Job Stabilization 
initiative that will use the Watershed Condition Framework, State 
Forest Assessments, costs, and input from local communities to 
prioritize projects to fund to make progress toward improving watershed 
condition class. Proposed projects will be developed by the Forest 
Service and will come from the Action Plans created for the priority 
watersheds identified as part of the Watershed Condition Framework. We 
will also continue to use some of our established targeted measures, as 
well as continue to track outcomes related to past measures. FY 2012 
restoration projects will maintain and improve water quality and 
watershed function, improve fish and wildlife habitat, and integrate 
forest products production into stewardship and watershed restoration 
activities.
Responding to Climate Change
    Climate change jeopardizes the benefits that the public receives 
from America's forests and grasslands, including clean air and water, 
forest products, and recreational opportunities. Many of the management 
challenges that we have faced over the past decades have been 
exacerbated by climate change, including catastrophic wildfires, 
changing water regimes, insect infestations, and disease. In FY 2012, 
the Forest Service will continue to focus on incorporating climate 
change adaptation into multiple program areas, which includes making 
ecosystems more resistant to climate-related stressors, increasing 
ecosystem resilience to disturbance driven by climate change, and 
facilitating landscape-scale ecological transitions in response to 
changing environmental conditions. This priority is again tightly tied 
to restoration and our IRR budget line item. Restoring key functions 
and processes characteristic of healthy, resilient ecosystems allows 
them to withstand future stressors and uncertainties. Examples of IRR 
projects include decommissioning roads to reduce the risk of erosion 
from severe storms, reducing fuels outside the WUI to reduce the risk 
that severe wildfire will damage resources near important watersheds or 
critical habitat, and reforestation to stabilize critical watersheds 
and soils impacted by natural events and to increase long-term carbon 
sequestration capacity.
    The Forest Service has developed a Roadmap for Responding to 
Climate Change in order to guide the agency in achieving its climate 
change goals. The Roadmap focuses on three kinds of activities: 1) 
assessing current risks, vulnerabilities, policies, and gaps in 
knowledge; 2) engaging internal and external partners in seeking 
solutions; and 3) managing for resilience, in ecosystems as well as in 
human communities. The agency has implemented a scorecard to measure 
progress made by each national forest and grassland. The scorecard 
assesses agency capacity, partnerships and education, adaptation, 
mitigation, and sustainable consumption.
    Our commitment to responding to climate change is underscored in 
the proposed Planning Rule, published for comment in the Federal 
Register on February 14, 2011. The Forest Service will begin to operate 
under the proposed Planning Rule in FY 2012 after it is finalized, 
emphasizing citizen collaboration and an all-lands approach to 
management planning, ecosystem restoration, and climate change 
mitigation. A new budget line item, Land Management Planning, 
Assessment and Monitoring, has been proposed for FY 2012. Combining the 
previous line items Land Management Planning and Inventory & Monitoring 
highlights the clear tie between gathering information through 
monitoring and making management planning decisions. This combination 
better aligns program funding with the objectives of the proposed 
Planning Rule, ensuring that planning, monitoring, and conducting 
assessments are coordinated across the landscape.
    Our climate change research program will continue to help clarify 
how climate change is expected to affect our ecosystems and the 
services they provide and to inform decision-makers as they evaluate 
policy options. With two decades of climate change research, the USFS 
is the authority on how forest and range management can be modified to 
address the challenges of global change.
Community-based Stewardship
    Working with local communities is critical to the success of 
restoration efforts and increasing ecosystem resilience across the 
landscape. Increasing collaboration with stakeholders can move 
conservation efforts from a scale of thousands of acres to hundreds of 
thousands of acres. Most importantly, working together with 
stakeholders from project planning to implementation helps build 
citizen support for ecosystem restoration projects. The importance of 
getting citizens and communities more connected and involved with the 
outdoors has been emphasized in AGO. AGO seeks to empower citizens, 
community groups, and local, State and Tribal governments to share in 
the stewardship responsibility for protecting, improving, and accessing 
natural areas and their resources, with the end result of a healthy, 
vibrant outdoor legacy for generations to come. The agency is committed 
to achieving greater community-based stewardship in pursuit of 
resilient forests as outlined in the America's Great Outdoors Report. 
The FY 2012 budget strategically allocates resources to support 
exemplary local stewardship models and to catalyze new partnerships and 
innovations. The Forest Service will work towards the goals of AGO 
through multiple program areas.
    Building on the sentiments of the American people, the AGO 
initiative seeks to maximize use of the Land and Water Conservation 
Fund (LWCF), which directs a portion of revenue from offshore oil and 
gas leases to conservation projects. The LWCF funds the Forest 
Service's Forest Legacy and Land Acquisition programs and provides 
local communities the opportunity to cost-share the conservation of 
priority forest land. The FY 2012 budget request funds LWCF at the 
fully authorized amount, which constitutes an increase of $59 million 
for the Forest Legacy program and an increase of $26 million for the 
Land Acquisition program from the FY 2011 annualized continuing 
resolution. Forest Legacy works with States, private landowners, and 
other conservation partners to protect environmentally critical forests 
threatened by land conversion through conservation easements. Project 
funding is based on a nationally competitive process. To date, the 
Forest Legacy program has leveraged more than $630 million in non-
federal matching funds to conserve over 2 million acres of non-Federal 
forest land. In FY 2012, 48 projects have been proposed for funding in 
38 states. Forest Legacy projects keep working forests working, which 
keeps jobs in rural areas. Forest Legacy projects also provide public 
access to recreation in many areas. Land Acquisition supports a similar 
function. Its primary focus is on land acquisitions and donations on 
land adjacent to national forests. In FY 2012, 38 nationally 
prioritized lands have been proposed for funding. Recreation on 
national forest lands results in a boost to local economies and the 
creation of jobs. This budget request includes an increase of $5.4 
million for Recreation in support of AGO.
    Protecting land that borders NFS lands and acquiring in holdings 
abates the threat of development. Subdivisions and houses being 
established immediately adjacent to our wild areas increases costs to 
the agency, particularly for programs such as fire suppression. We have 
invested in protecting wildlife for over a century. By fully funding 
LWCF, our budget will maintain our historic investments for the 
American people. In addition to LWCF, we also have other tools to 
increase our management efficiency and become better neighbors with our 
adjacent landowners and will use these as well. I would like to also 
draw the subcommittee's attention to the pilot land exchange program 
proposed in the landownership management budget line item, which will 
accentuate the benefits of consolidated land tenure on one of our 
National Grasslands.
    In FY 2012 the Forest Service will commence implementation of the 
2008 Farm Bill's Community Forest and Open Space Conservation Program. 
This program provides eligible Tribal governments, local governments, 
and qualified non-profit organizations cost-share grants for creating 
community forests through fee-simple acquisition. This budget request 
includes an increase of $4.5 million for the Community Forest and Open 
Space Program. These forests will be able to provide public access and 
recreational opportunities, as well as protection of vital water 
supplies and wildlife habitat, demonstration sites for private forest 
landowners, and financial and community benefits from sustainable 
management.
    The Forest Service will continue to expand community engagement in 
restoration efforts on National Forest System land through the 
Collaborative Forest Landscape Restoration Program (CFLR). Under the 
IRR budget line item, CFLR will provide for the continued 
implementation of the ten long-term projects selected in FY 2010 and 
will provide for the selection of additional long-term projects. CFLR 
projects are proposed through multi-stakeholder collaborative planning 
at a local level, and priorities are suggested by a Federal Advisory 
Committee. In 2010, CFLR funded 10 community restoration projects in 
Idaho, California, Colorado, Arizona, New Mexico, Montana, Washington, 
Oregon, and Florida.
    Conservation education and volunteer opportunities will be a 
priority for the Forest Service as we implement AGO recommendations. We 
already have a variety of programs that have successfully connected 
youth to the outdoors, and we will continue to find opportunities for 
engaging youth in conservation efforts in FY 2012. The Lake Tahoe 
Generation Green program works with local community groups to engage 
at-risk high-school students in outdoor leadership and forest 
management activities. The Kids in the Woods program at the Apache-
Sitgreaves National Forest is another example of a successful locally-
based outdoor education program that has taught over 5,000 participants 
about a wide range of topics, including invasive species, water 
conservation, and responsible off-road vehicle use. The Chugach 
Children's Forest in Alaska connects village, rural and inner-city 
youth with a nearby national forest, while motivating local District 
Rangers to work alongside community officials and school 
superintendents, integrating community youth challenges with outdoor 
solutions. Volunteer opportunities will also expand across the Forest 
Service, including wilderness stewardship, trail clearing, restoration 
of historic structures, and campground host duties.
    Finally, the proposed Planning Rule establishes a framework that 
emphasizes a collaborative approach to land management planning, 
assessment, and monitoring. The Forest Service will work with the 
public, Tribes and other partners to develop, revise and amend land 
management plans, conduct assessments and develop and implement 
monitoring programs. Collaborative approaches build citizen support in 
identifying needs, establishing desired conditions, crafting 
alternatives for future management, and identifying information and 
monitoring needs.
Jobs in Rural Communities
    In August 2009 in Seattle, WA, Secretary Vilsack spoke of the need 
for a ``shared vision'' that not only focuses on forest conservation, 
but also on supporting a forest economy that creates jobs and vibrant 
rural communities. The Forest Service is not only committed to 
providing benefits to the American people in the form of clean air and 
water, fish and wildlife habitat, timber, and recreation opportunities, 
but also in the form of jobs and sustainable rural communities.
    Forests and grasslands are an important source of employment and 
rural development. More than 2.5 million Americans have forest-related 
jobs in fields ranging from ecological restoration to outdoor 
recreation services to the forest products industry.\3\ The Forest 
Service provides service contracts for many types of activities 
including tree planting, timber harvesting, noxious weed control, 
culvert replacement, and road reconstruction. Recreation on national 
forest lands also bolsters local economies and creates jobs. The 2010 
National Visitor Use Monitoring Report found that spending by 
recreation visitors in areas surrounding national forests amounts to 
nearly $13 billion each year.
---------------------------------------------------------------------------
    \3\ USDA, Forest Service. 2010. Draft National Report on 
Sustainable Forests. http://www.fs.fed.us/research/sustain/
---------------------------------------------------------------------------
    Over the past year the Forest Service has worked to create and 
retain jobs in rural communities through the American Recovery and 
Reinvestment Act (ARRA) of 2009. The Forest Service received funding 
for two programs. Capital Improvement and Maintenance received funds to 
restore infrastructure that supports public, administrative, and 
recreation uses, while minimizing impacts to ecosystem stability and 
conditions. In addition, Wildland Fire Management received funds to 
protect communities from large fires and to contribute to the 
restoration of fire-adapted landscapes. Final completion of all ARRA 
projects is expected to occur in the next two fiscal years. However, 
the agency will continue to have a jobs focus. Job creation and rural 
development will be a priority in FY 2012.
    One of the highlights of the IRR budget line item is creating job 
opportunities in rural areas. Creating job opportunities through 
landscape-scale restoration projects is a key component of the Priority 
Watersheds and Job Stabilization Initiative under IRR. Stewardship 
contracts and agreements will be a significant method for carrying out 
restoration efforts, and attention will be given to new and emerging 
markets for the wood removed during restoration activities, as well as 
the traditional uses for these products. Building a forest restoration 
economy will create new jobs in rural communities and help diversify 
the forest products industry to support the sustainability of local 
communities and the forest contractor infrastructure needed to perform 
restoration work. Also, we are working to further build a forest 
restoration economy around wood utilization by targeting grants to 
assist small businesses. Since 2005, the Woody Biomass Utilization 
Grant Program has awarded a total of $30.6 million to 123 grant 
recipients in 21 States, including small businesses, non-profit 
organizations, Tribes, and State agencies, to further innovations in 
the wood products sector that lend to job creation.
    The Forest Service has also invested in job creation for youth 
through Job Corps, a partnership with the Department of Labor. This 
program helps people ages 16 through 24 improve the quality of their 
lives through technical and academic career training. With Department 
of Labor funding, we operate 28 Job Corps Civilian Conservation Centers 
across the country that provide approximately 6,200 students per year 
with the skills they need to become employable and independent so that 
they can find meaningful jobs or further education. In March 2010, 
Secretary Vilsack unveiled a green Job Corps Curriculum that will help 
train underserved youth for jobs in the emerging green economy using 
national forests and grasslands as training sites for solar, wind and 
biomass energy demonstrations.
    America's Great Outdoors hopes to build on the success of programs 
like Job Corps by creating a 21st Century Conservation Service Corps 
program that will remove barriers to employment and improve career 
pathways to jobs in natural resource conservation. This includes use of 
the Public Lands Corps Healthy Forests Restoration Act of 2005, which 
expanded youth service opportunities while addressing important 
conservation and societal objectives. The Forest Service has a long-
standing commitment to recruiting employees that contribute to 
workforce diversity; providing opportunities for disadvantaged youth to 
pursue natural resource careers; and creating the next generation of 
land conservationists. The Forest Service will expand on AGO Goal A (to 
develop conservation jobs and service opportunities that protect and 
restore America's natural resources) through the Youth Conservation 
Corps (YCC). This summer employment program aims to accomplish needed 
conservation work on public lands, provides gainful employment for 15- 
through 18-year olds from diverse backgrounds, and develops in them an 
understanding and appreciation of the Nation's natural environment and 
heritage.
    To continue supporting the communities that we work in, the FY 2012 
President's Budget proposes a five-year reauthorization of the Secure 
Rural Schools Act, named Payments to Communities, and includes $328 
million of discretionary funding for FY 2012. This Act provides annual 
payments to counties for schools and roads, forest restoration/
protection, and fire assistance. The proposal modifies the existing 
framework to emphasize enhancing forest ecosystems, improving land 
health and water quality, and increasing economic development 
activities. The Administration is open to working with Congress to fund 
either through discretionary or mandatory appropriations.
Wildland Fire Management
    The FY 2012 budget request continues to reflect the President's 
commitment to responsibly budget for wildfires, ensuring fire 
management resources are used in a cost effective manner in high 
priority areas. The 10-year average of suppression costs is fully 
funded, and the allocations between Preparedness and Suppression funds 
have been adjusted to ensure that readiness needs are fully funded for 
this fiscal year. The budget request includes a two-tier system for 
fire suppression. The Suppression account will be the primary source of 
funding for responding to wildfires, covering the costs of initial and 
smaller extended attack operations. The FLAME reserve account will 
provide better accounting of funds to cover fires escaping initial 
attack that are large and complex, as it did last year. This system 
ensures that funds are available to fight fires without diverting funds 
from other critical Forest Service programs and activities.
Conclusion
    This President's budget request for FY 2012 takes a comprehensive, 
all-lands approach to conservation that addresses the challenges that 
our forests and grassland currently face, while also taking into 
consideration the need to reduce spending and to find the most 
efficient way to do our work.
    The future of our country's forests and the valuable ecosystem 
services they provide depend on our ability to manage for an uncertain 
climate and uncertain market. This means landscape-level restoration, 
working across ownership boundaries, relying upon a foundation of 
strong science to guide decisions, and collaborating with Tribal, 
State, local, private, and other Federal stakeholders to achieve common 
goals. A comprehensive approach to restoring unhealthy ecosystems will 
help make our forests more resilient to stressors and disturbances 
related to climate change and protect our vital water resources. At the 
same time, we can significantly contribute to economic recovery and job 
support by building a forest restoration economy. Greater involvement 
of citizens and communities is key to successfully implementing 
restoration efforts at large geographic scales. Our vision in creating 
healthy landscapes not only includes creating healthy ecosystems, but 
also creating healthy, thriving communities around our Nation's forests 
and grasslands and providing jobs in rural areas. The FY 2012 budget 
request highlights these priorities.
    I look forward to sharing more with you about our FY 2012 
priorities and working with you in shaping the proposals laid out in 
this budget. Thank you for your time and attention, and I look forward 
to answering any questions you may have.
                                 ______
                                 
    Mr. Bishop. Director Abbey.

STATEMENT OF ROBERT ABBEY, DIRECTOR, BUREAU OF LAND MANAGEMENT, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Chairman Bishop and members of the committee, 
once again it is a pleasure for me to appear before you.
    As Chairman Bishop alluded to, I have one of the best jobs 
in all of America as far as working with the Bureau of Land 
Management because each day I get to come to work and work with 
10,000 of the most dedicated public servants that you will find 
anywhere in all of government at any level.
    But today I appear before you to talk about the President's 
Fiscal Year 2012 budget request for the Bureau of Land 
Management. The BLM administers more than 245 million acres of 
land and approximately 700 million acres of subsurface mineral 
estate nationwide.
    The BLM is a sound investment for America. The management 
of public land resources and protection of public land values 
results in extraordinary economic benefits to local economies 
and to the Nation. The BLM's management of public lands 
contributes more than $100 billion annually to the national 
economy and supports more than 500,000 American jobs. Revenues 
generated from the public lands make the BLM one of the top 
revenue-generating Federal agencies, positively affecting the 
U.S. Treasury and directly benefiting the U.S. taxpayer.
    The BLM's Fiscal Year 2012 budget request is $1.1 billion, 
a decrease of 12 million from the 2010 enacted level. The 
budget proposal reflects the Administration's efforts to 
maximize public benefits, while recognizing the reality of the 
current fiscal situation and the need to reduce the Nation's 
budget deficit.
    The proposed budget for the BLM makes strategic investments 
in support of important Administration and secretarial 
initiatives, including America's Great Outdoors, the New Energy 
Frontier, Cooperative Landscape Conservation, and Youth in 
America's Great Outdoors. Investment in these programs today 
will reap benefits not only today, but for years to come.
    To enhance the conservation of BLM-managed lands and 
reconnect Americans to the outdoors, our budget calls for an 
almost $30 million increase in support of America's Great 
Outdoors Initiative. This includes $15 million for the BLM's 27 
million-acre National Landscape Conservation System, which 
includes special areas such as designated wilderness, national 
monuments, national conservation areas and wild and scenic 
rivers. The budget also includes $8.6 million to support 
programs and partnerships that engage youth in the outdoors and 
provide a paycheck to the young adults.
    The New Energy Frontier Initiative recognizes the value of 
environmentally sound, scientifically grounded development of 
both renewable and conventional energy resources on public 
lands. President Obama and Secretary Salazar have stressed the 
critical importance of renewable energy to the future of the 
United States. Developing renewable energy creates jobs and 
promotes innovation in the United States, while reducing our 
country's reliance on fossil fuels. To encourage development on 
the public lands, the BLM budget proposes a $3 million increase 
for renewable energy environmental studies.
    In the conventional energy arena, the BLM expects its 
onshore mineral leasing activities to contribute $4.3 billion 
to the Treasury in Fiscal Year 2012. The BLM focuses in 2012 on 
implementing our oil and gas program reforms that place a 
continued emphasis on oil and gas inspections, environmental 
enforcement and production monitoring.
    The budget includes an increase of $13 million for 
processing oil and gas applications for permits to drill. Also, 
the budget proposes to shift the share of the cost of oil and 
gas inspections activities from discretionary appropriations to 
industry fees, for a savings of $38 million. A fee for 
nonproducing leases and an increase in the onshore oil and gas 
royalty rate are also included in our Fiscal Year 2012 budget 
proposal.
    Other BLM priorities in the 2012 budget request includes 
the Secretary's Cooperative Landscape Conservation Initiatives, 
which call for bringing better science to the management of 
BLM's managed lands and includes a $2.5 million increase. Also 
putting the BLM's wild horse and burro program on a sustainable 
track while ensuring humane treatment is a top priority. The 
BLM budget proposes $75 million for this program.
    Finally, the BLM's budget for Fiscal Year 2012 assumes 
legislative proposals to reform hardrock mining of both public 
and private lands.
    The BLM's budget request provides funding for the agency's 
highest-priority initiatives, maximizes public benefits, and 
reflects difficult choices for reductions.
    Mr. Chairman, members of the committee, again, thank you 
for the opportunity to testify, and I would be happy to answer 
any questions that you might have.
    Mr. Bishop. Thank you.
    [The prepared statement of Mr. Abbey follows:]

  Statement of Robert V. Abbey, Director, Bureau of Land Management, 
                    U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss the President's Fiscal Year 
(FY) 2012 budget request for the Bureau of Land Management (BLM).
    The BLM, an agency of the U.S. Department of the Interior (DOI), is 
responsible for protecting the resources and managing the uses of our 
Nation's public lands, which are located primarily in 12 western 
States, including Alaska. The BLM administers more land--over 245 
million surface acres--than any other Federal agency. The BLM also 
manages approximately 700 million acres of onshore subsurface mineral 
estate throughout the Nation. The BLM's unique multiple-use management 
of the public lands is accomplished by managing such activities as 
outdoor recreation, livestock grazing, mineral development, and energy 
production, and by conserving natural, historical, cultural, and other 
resources.
Meeting Our Nation's Needs
    The BLM is a sound investment for America. Management of public 
land resources and protection of public land values results in 
extraordinary economic benefits to local communities and to the Nation. 
The BLM's management of public lands contributes more than $100 billion 
annually to the national economy and supports more than 500,000 
American jobs. Revenues generated from the public lands make the BLM 
one of the top revenue-generating Federal agencies, positively 
affecting the U.S. Treasury, and directly benefiting the U.S. taxpayer.
    A key component of these economic benefits is the BLM's 
contribution to America's energy portfolio. The BLM expects its onshore 
mineral leasing activities to contribute $4.3 billion to the Treasury 
in Fiscal Year 2012. The BLM currently manages more than 41 million 
acres of oil and gas leases, although less than 30 percent of that 
acreage is currently in production. More than 114 million barrels of 
oil were produced from BLM-managed mineral estate in Fiscal Year 2010 
(the most since Fiscal Year 1997), and the almost 3 billion MCF 
(thousand cubic feet) of natural gas produced made 2010 the second-most 
productive year of natural gas production on record. The coal produced 
from nearly a half million acres of federal leases powers more than 
one-fifth of all electricity generated in the United States.
    The BLM is also leading the Nation toward the new energy frontier 
with active solar, wind, and geothermal energy programs. The BLM has 
proposed 24 Solar Energy Zones within 22 million acres of public lands 
identified for potential solar development, and in 2010 approved nine 
large-scale solar energy projects. These projects will generate more 
than 3,600 megawatts of electricity, enough to power close to 1 million 
homes, and could create thousands of construction and operations jobs. 
Development of wind power is also a key part of our Nation's energy 
strategy for the future. The BLM manages 20 million acres of public 
lands with wind potential; currently, there are 437 MW of installed 
wind power capacity on the public lands. Geothermal energy development 
on the public lands, meanwhile, accounts for nearly half of U.S. 
geothermal energy capacity.
    Energy production is not the only way in which the BLM contributes 
to local communities and the national economy. The combined economic 
impacts of timber-related activities on BLM-managed lands, grazing-
related activities, and activity attributable to non-energy mineral 
production from BLM-managed mineral estate total more than $5 billion 
each year. Recreation on public lands also provides major economic 
benefits to local economies and communities. In 2010, more than 58 
million recreational visits took place on BLM-managed lands and waters, 
contributing billions of dollars to the U.S. economy. The diverse 
recreational opportunities on BLM-managed lands draw crowds of 
backpackers, hunters, off-road vehicle enthusiasts, mountain bikers, 
anglers, and photographers. In an increasingly urbanized West, these 
recreational opportunities are vital to the quality of life enjoyed by 
residents of western states, as well as national and international 
visitors.
FY 2012 Budget Overview
    The BLM's FY 2012 budget proposal reflects the Administration's 
effort to maximize public benefits while recognizing the reality of the 
current fiscal situation and the need to reduce the Nation's budget 
deficit. The proposed budget for the BLM makes strategic investments in 
support of important Administration and Secretarial Initiatives--
including America's Great Outdoors, the New Energy Frontier, 
Cooperative Landscape Conservation, and Youth in the Great Outdoors. 
Investments in these programs today will reap benefits for years to 
come.
    The BLM's total FY 2012 budget request is $1.13 billion in current 
authority, one percent and $12.0 million below the 2010 enacted/2011 
continuing resolution level. The budget proposes $933.8 million for the 
Management of Lands and Resources Appropriation and $112.0 million for 
the Oregon and California Grant Lands Appropriation, the BLM's two main 
operating accounts. This represents a net decrease of $25.3 million for 
these two accounts from the FY 2010 enacted/2011 CR level. While making 
strategic program increases of $93.3 million for high-priority 
initiatives, the budget offsets funding increases for these priorities 
by implementing $25.5 million in information technology and 
administrative and management savings; shifting $42.4 million in energy 
and minerals inspection costs to industry; and reducing funding for 
lower priority programs. The budget also includes several important 
legislative proposals, including proposals to change the management of 
hardrock mining, collect fees to be used to remediate abandoned mines, 
charge a fee on new nonproducing oil and gas leases to encourage 
diligent development, extend expiring grazing permits, and reauthorize 
the Federal Land Transaction Facilitation Act and Service First 
authorities.
    It also should be noted that engaging with partner organizations 
and volunteers in the management of the public lands has been and will 
continue to be crucial to the BLM's ability to fulfill our diverse 
mission and many responsibilities. Partnerships and volunteers are even 
more critical in lean budget times, such as those we are in now. 
Through partnerships with organizations and local communities, and 
through the generosity of volunteers, we effectively leverage our 
resources, and expand our ability to meet our public land management 
goals. Partnerships also help to foster a sense of stewardship and 
community for the people most closely connected to those lands.
America's Great Outdoors
    In the rapidly urbanizing west, the BLM public lands are the 
backyard for over 40 million Americans living in more than 4,000 nearby 
cities and communities. Over 100 million acres of BLM-managed public 
lands are within a day's drive of 16 major urban areas. As steward of 
many of America's spectacular landscapes and some of its rich cultural 
and natural heritage, and given the proximity of the public lands to 
these population centers, the BLM is in a unique position to contribute 
significantly in advancing the President's initiative to reconnect 
Americans and our youth to the outdoors. The AGO initiative promotes 
the BLM's multiple-use mission by expanding opportunities for 
recreation activities--including hunting, fishing, and off-road vehicle 
use--while enhancing the conservation and protection of BLM-managed 
lands and resources. All of these activities have a place at the 
multiple-use table and strengthen the BLM's connection to western 
communities and to visitors to the public lands.
    The BLM's FY 2012 budget request includes $29.9 million in 
programmatic increases for the AGO Initiative in the operating 
accounts. Of this amount, $15.0 million will be used by the National 
Landscape Conservation System (NLCS); $7.0 million will be used in the 
Recreation Management program; and $7.9 million will be used in the 
Cultural Resource Management program. The land acquisition account 
includes a $20.4 million increase for priority land acquisition. Many 
of these land acquisition projects will provide access to popular 
recreation areas, and others will preserve natural resources and 
landscapes and protect irreplaceable cultural and historic sites.
    National Landscape Conservation System--The BLM's National 
Landscape Conservation System totals more than 27 million acres of 
public land that are designated by Acts of Congress or Presidential 
proclamations. These areas are managed to conserve, protect, and 
restore their conservation values, while allowing for appropriate 
multiple uses. NLCS units include National Monuments and National 
Conservation Areas, Wilderness Areas, Wilderness Study Areas, Wild & 
Scenic Rivers, and National Scenic & Historic Trails. The NLCS areas 
are very diverse, from red-rock deserts to rugged ocean coastlines, 
from deep river canyons to broad Alaskan tundra. Many areas are remote 
and wild while others are surprisingly accessible.
    The NLCS supports local communities and economies in a variety of 
ways. Approximately one-third of recreation use of BLM lands occurs 
within units of the NLCS. These NLCS units include over 2,700 
recreation sites and 22 visitor centers, serving 13 million annual 
visitors. Just outside of Las Vegas, Nevada, the extremely popular Red 
Rock Canyon National Conservation Area is visited by over 1 million 
people each year. These visitors generate over $1.7 million in 
recreation fees, all of which are re-invested at the local site, and 
have an additional positive impact on the surrounding tourist economy. 
Rather than building extensive facilities within the NLCS, the BLM 
supports the creation of recreation facilities in nearby local 
communities. In New Mexico, for example, the BLM is working with the 
Las Cruces Museum of Nature and Science to locate a small visitor 
center within the city museum. The visitor center will provide 
educational opportunities about BLM-managed resources at the nearby 
Prehistoric Trackways National Monument, while tourism supports the 
local economy. In addition to recreation, the NLCS supports scientists 
making new discoveries, protection of critical habitat for threatened 
and endangered species, and protection of nationally significant 
cultural resources.
    The proposed budget's $15.0 million increase for the NLCS provides 
$9.2 million for the National Monuments and National Conservation Areas 
program. Major priorities for the increased funding include expanding 
law enforcement capabilities to protect visitors and the natural 
resources; developing interpretive and environmental education products 
and programs to enhance visitors' understanding and appreciation of the 
resource values; and enabling scientific research that will enhance the 
Bureau's understanding of significant natural and cultural resources 
and facilitate better informed management strategies. The proposed 
budget includes increases of $2.0 million for the National Scenic & 
Historic Trails program, $2.0 million for the Wild & Scenic Rivers 
program, and $1.8 million for the Wilderness Management program.
    Recreation Management--BLM-managed lands provide a broad range of 
recreation opportunities such as hunting, camping, fishing, hiking, 
boating, horseback riding and shooting sports, and can accommodate many 
motorized activities, extreme sports, and special events. Western 
communities consider these activities an essential component to their 
economies and their quality of life. The BLM manages more than 600 
Special Recreation Management Areas, along with over 3,500 primitive 
and developed recreation sites, campgrounds, day-use areas and other 
facilities, and 40 major visitor centers and visitor contact stations. 
Over 95 percent of BLM-managed lands and recreational areas are free to 
the public. The BLM also manages 15,000 miles of recreation use trails 
and another 98,000 miles of Back Country-Scenic Byways and public 
access roads and routes, and oversees 3,400 commercial and competitive 
use permits and concessions, supporting thousands of businesses and 
communities across the West.
    The proposed $7.0 million Non-NLCS budget increase for BLM 
recreation management will be used to improve visitor health and safety 
by improving operations at high-demand and urban growth-impacted 
recreation areas, address off-highway vehicle management, and support 
various other initiatives such as stewardship education and youth 
programs, the Visual Resource Management program, and visitor use 
monitoring efforts. Funds will also be used to expand partnerships that 
leverage resources and promote volunteerism, such as outdoor programs 
for disabled children and for wounded warriors (veterans).
    Cultural Resource Management - The budget's proposed increase of 
$7.9 million for the BLM's cultural resource management program (Non-
NLCS) will be used to implement conservation strategies and 
partnerships to manage nationally significant cultural and 
paleontological resources. The BLM will use $3.2 million of the 
increase for enhancing conservation and management actions to 
inventory, stabilize, monitor, and study cultural resources; 
facilitating partnerships that support community resource stewardship; 
and digitizing the inventory so that compliance reviews can be 
streamlined at a significant cost-savings. The BLM will use an 
additional $2.0 million of the increase to enhance partnerships with 
state, local, and tribal governments, and with non-profit museums and 
universities that curate artifacts and specimens from the public lands. 
The remaining $2.6 million will be used for enhancing other cultural 
resource management activities.
    Land Acquisition--Input from the America's Great Outdoors 
nationwide public listening sessions indicated that full funding of the 
Land and Water Conservation Fund (LWCF) program is a high priority. 
BLM's total budget request for the LWCF land acquisition program is 
$50.0 million, an increase of $20.4 million over the FY 2010 enacted/
2011 CR funding level. The increase helps BLM contribute to the 
Administration's goal of fully funding the Land and Water Conservation 
Fund at $900 million in 2012. The Budget funds 19 acquisition projects 
in eight states that will, at a landscape or ecosystem level, provide 
access to public lands; improve river and riparian conservation and 
restoration; conserve or protect wildlife habitat; preserve open 
spaces; provide for historic and cultural preservation; and create 
opportunities for public recreation. The BLM works with other federal 
agencies and multiple state, tribal, and local governments and non-
governmental partners in determining the most critical lands to propose 
for purchase.
New Energy Frontier
    The New Energy Frontier initiative recognizes the value of 
environmentally-sound, scientifically-grounded development of both 
renewable and conventional energy resources on the Nation's public 
lands. The proposed FY 2012 budget for the BLM follows this approach 
and includes priority funding for both renewable and conventional 
energy development on the public lands.
    Renewable Energy--President Obama, Secretary Salazar, and the 
Congress have stressed the critical importance of renewable energy to 
the future of the United States. Developing renewable energy resources 
is central to the Nation's efforts to reduce greenhouse gas emissions, 
mitigate climate change, and protect the global environment. Renewable 
energy is also vital to our economic development and energy security. 
Developing renewable energy will create jobs and promote innovation in 
the United States while reducing the country's reliance on fossil 
fuels.
    The BLM made significant strides in promoting renewable energy 
development on the public lands in 2010, including the approval of nine 
large-scale solar energy projects, and release of a draft Solar 
Programmatic EIS to provide for landscape-scale siting of solar energy 
projects on the public lands. The agency also is reviewing over 45 wind 
energy applications, and continues to work on wind development 
mitigation strategies with wind energy applicants and other Federal 
agencies. BLM-managed lands also serve as important corridors for the 
transmission infrastructure needed to deliver renewable energy to the 
American people. To encourage and facilitate renewable energy 
development, the President's FY 2012 budget for the BLM proposes a $3.0 
million increase over the FY 2010 enacted/2011 CR level. The increase 
will be used to conduct site specific studies of potential solar energy 
sites in Nevada, and regional studies of potential wind energy zones in 
Nevada and Oregon.
    Conventional Energy--Secretary Salazar has emphasized that 
conventional energy resources on BLM-managed lands play a critical role 
in meeting the Nation's energy needs. In 2010, conventional energy 
development from public lands produced 45 percent of the Nation's coal, 
14.1 percent of the natural gas, and 5.7 percent of the domestically-
produced oil. The Department's balanced approach to responsible 
conventional energy development combines onshore oil and gas policy 
reforms with effective budgeting to provide appropriate planning and 
support for conventional energy development, which has been the target 
of increased appeals and protests.
    The BLM is committed to ensuring oil and gas production is carried 
out in a responsible manner. To accomplish this, the BLM performs 
various types of inspections to ensure that lessees meet environmental, 
safety, and production reporting requirements. The BLM has begun a 
pilot program using a risk-based inspection protocol for production 
inspections, inspecting first those leases with high levels of oil or 
gas production. The BLM plans to expand this risk-based strategy to the 
other types of inspections it performs. The risk-based strategy will 
help the BLM maximize the use of a limited inspection staff to better 
meet the inspection goals and requirements in the future.
    The FY 2012 budget request essentially maintains the BLM oil and 
gas program capacity at the FY 2010 enacted/2011 CR level. An increase 
of $13.0 million is proposed to offset a projected decline in fee 
collections for processing applications for permit to drill (APD) oil 
and gas on the public lands; a reduction of $3.0 million is proposed to 
reflect the completion of an energy study required by the Energy Policy 
and Conservation Act of 2000. The budget also includes an increase of 
$2.0 million to improve air quality monitoring associated with 
intensive oil and gas development. This funding will help the BLM 
ensure that energy development complies with NEPA and Clean Air Act 
requirements and will aid the BLM in minimizing or addressing potential 
litigation issues.
    The Administration believes that American taxpayers should get a 
fair return on the development of energy resources on their public 
lands. A 2008 Government Accountability Office (GAO) report suggests 
that taxpayers could be getting a better return from Federal oil and 
gas resources in some areas. Subsequent GAO reports have reiterated 
this conclusion. The BLM and the Bureau of Ocean Energy Management, 
Regulation, and Enforcement are cooperating to conduct an international 
study of oil and gas revenues under different management regimes. The 
study should be completed and published later this year. To this end, 
the Administration proposes to implement the following reforms:
        <bullet>  In 2012 the BLM will begin to charge a fee to recover 
        inspection costs for the oil and gas program, allowing a 
        savings of $38.0 million in requested funding. The fee would 
        defray Federal costs and ensure continued diligent oversight of 
        oil and gas production on Federal lands. Fee levels would be 
        based on the number of oil and gas wells per lease so that 
        costs are shared equitably across the industry.
        <bullet>  To encourage diligent development of new oil and gas 
        leases, the Administration is proposing a per-acre fee on each 
        nonproducing lease issued after enactment of the proposal. The 
        $4 per acre fee on new non-producing Federal leases would 
        provide a financial incentive for oil and gas companies to 
        either put their leases into production or relinquish them so 
        that tracts can be re-leased and developed by new parties.
        <bullet>  The BLM will propose a rulemaking in 2011 to increase 
        the onshore oil and gas royalty rate from its current 12.5 
        percent level. The BLM expects that the royalty rate increase 
        will increase oil and gas revenues by more than $900 million 
        over 10 years.
Cooperative Landscape Conservation/Sage-Grouse Habitat Management
    The Secretary's Cooperative Landscape Conservation Initiative 
recognizes the need to understand the condition of BLM-managed 
landscapes on a broad level. The BLM is coordinating its efforts with 
other DOI bureaus and other partners through a network of Landscape 
Conservation Cooperatives (LCCs). The FY 2012 BLM budget request 
includes an increase of $2.5 million to support the work of BLM 
resource managers through the LCCs. Funding will enable managers to 
conduct eco-regional assessments to provide a better understanding of 
adverse impacts to the health of BLM lands and the larger western 
landscapes of which they are a part, and to implement various land 
health treatments to help combat the effects of these impacts.
    Although not part of the Initiative, the budget includes a related 
increase of $2.0 million to enhance monitoring and assessment of 
habitat of the greater sage-grouse and the Gunnison sage-grouse, 
allowing the BLM to continue on-going efforts to conserve and protect 
important habitat. The BLM--which manages more habitat for the greater 
sage-grouse than any other government agency--has been working 
proactively on this issue on a number of fronts, including issuing 
guidance to its field offices that calls for expanding the use of new 
science and mapping technologies to improve land-use planning. With the 
increase, the BLM will implement broad-scale sage-grouse habitat 
monitoring activities to ascertain the effectiveness of habitat 
management and the effect of land use authorizations. This new broad-
scale monitoring effort will fill critical data and information gaps 
necessary for sage-grouse habitat protection and restoration. 
Conservation efforts implemented on BLM-managed land will be of limited 
benefit if conservation practices are not monitored and applied 
uniformly across jurisdictional boundaries. Therefore, BLM has 
partnered with the U.S. Fish and Wildlife Service, the Natural Resource 
Conservation Service, the Agricultural Research Service and State fish 
and wildlife agencies in this effort, which will allow the BLM to 
determine where it should focus its sage-grouse habitat conservation 
efforts.
Youth in Natural Resources Initiative
    Secretary Salazar has pledged through his Youth in Natural 
Resources initiative to create the next generation of conservation 
leaders using youth education, engagement, and employment programs. 
Many of today's youth have fewer opportunities than in previous 
generations to experience the outdoors, and the BLM is working to 
foster personal connections between young people and our Nation's 
public lands and resources. In order to promote stewardship and 
encourage the pursuit of careers in natural resources, the BLM employs 
young people through various programs to conduct natural resources work 
such as inventorying and monitoring, trails construction, and habitat 
restoration.
    In 2010, the BLM received $7.6 million to support programs and 
partnerships that engage youth in natural resource management; 
encourage young people and their families to visit, explore, and learn 
about the public lands; and promote stewardship, conservation, and 
public service. The Budget proposes to increase support for the Youth 
initiative by $1.0 million through redirecting $1.0 million in base 
funding provided to the National Fish and Wildlife Foundation to 
support a competitive grant program to develop new or expand existing 
youth job programs. In FY 2012 the BLM will continue to fund youth 
programs and partnerships and contribute to the Department's goal to 
increase by more than 50 percent (from 2009 levels) the employment of 
youth between the ages of 15-25 in the conservation mission of the 
Department by the end of 2012.
Other Priority Increases
    Wild Horse & Burro Program - Putting the BLM's wild horse and burro 
program on a sustainable track is one of Secretary Salazar's and my top 
priorities. To achieve that end, the FY 2012 budget includes a proposed 
increase of $12.0 million over the 2010 enacted level for efforts to 
enhance herd fertility control. The BLM is also contracting for a study 
by the National Academy of Sciences (NAS) to review previous wild horse 
management studies and make recommendations on how the BLM should 
proceed in light of the latest scientific research. The NAS expects to 
complete its review in early 2013. In the meantime, the BLM intends to 
reduce the annual number of wild horses gathered and removed from the 
range from 10,000 to 7,600 horses (a 24 percent reduction); continue to 
pursue public-private partnerships to hold excess horses gathered from 
Western public rangelands; and increase significantly the number of 
mares treated with fertility control, from 500 in 2009 to a target of 
2,000. Congress has asked the BLM to find ways to manage these symbols 
of the West in a cost-effective, humane manner, and we are committed to 
do that.
    Secretary's Western Oregon Strategy--The FY 2012 budget proposes an 
increase of $3.0 million in the O&C account to help the BLM meet 
multiple concurrent objectives related to Western Oregon forestry 
management: increase the volume of timber offered for sale; support key 
resource management planning objectives; increase surveying for rare, 
uncommon, or endangered species; provide for landscape-level timber 
sale project environmental analysis; and facilitate joint 
implementation of a revised recovery plan for the northern spotted owl.
Abandoned Mines & Hardrock Mining Reform Proposals
    The Budget proposes legislation to address abandoned mine land 
(AML) hazards on both public and private lands and to provide a fair 
return to the taxpayer from hardrock production on Federal lands. The 
first component of this proposal addresses abandoned hardrock mines 
across the country through a new AML fee on hardrock production. Just 
as the coal industry is held responsible for abandoned coal sites, the 
Administration proposes to hold the hardrock mining industry 
responsible for abandoned hardrock mines. The proposal will levy an AML 
fee on all uranium and metallic mines on both public and private lands 
that will be charged on the volume of material displaced after January 
1, 2012. The fee will be collected by the Office of Surface Mining, 
while the receipts will be distributed by BLM. Using an advisory 
council comprised of representatives of Federal agencies, States, 
Tribes, and non-government organizations, the BLM will create a 
competitive grant program to restore the Nation's most hazardous 
hardrock AML sites on both public and private land each year. The 
advisory council will recommend objective criteria to rank AML projects 
to allocate funds for remediation to the sites with the most urgent 
environmental and safety hazards. The proposed hardrock AML fee and 
reclamation program would operate in parallel to the coal AML 
reclamation program, as two parts of a larger proposal to ensure that 
the Nation's most dangerous coal and hardrock AML sites are addressed 
by the industries that created the problems. The 2012 BLM budget 
request also includes an increase of $4.0 million in regular 
discretionary appropriations to address high priority AML sites, such 
as the Red Devil mine in Alaska.
    The second piece of the legislative proposal would institute a 
leasing process under the Mineral Leasing Act of 1920 for certain 
minerals (gold, silver, lead, zinc, copper, uranium, and molybdenum) 
currently covered by the General Mining Law of 1872. After enactment, 
mining for these metals on Federal lands would be governed by a new 
leasing process and subject to annual rental payments and a royalty of 
not less than five percent of gross proceeds. Half of the receipts 
would be distributed to the States in which the leases are located and 
the remaining half would be deposited in the Treasury. Pre-existing 
mining claims would be exempt from the change to a leasing system, but 
would be subject to increases in the annual maintenance fees under the 
General Mining Law of 1872. However, holders of pre-existing mining 
claims for these minerals could voluntarily convert their claims to 
leases. The Office of Natural Resources Revenue in the Department of 
the Interior will collect, account for, and disburse the hardrock 
royalty receipts.
Reductions & Efficiencies
    The BLM's Fiscal Year 2012 budget proposal reflects many difficult 
choices to produce a cost-conscious budget, while supporting priority 
initiatives and maximizing public benefits. Among the reductions in the 
proposed budget are the following:
        <bullet>  Alaska Land Conveyance Program: reduction of $17.0 
        million as part of an effort to reevaluate and streamline the 
        conveyance process. Most of the original 150 million acres are 
        already under interim or final conveyance and the BLM will 
        explore opportunities to further streamline the program to 
        focus resources on completing the final transfers.
        <bullet>  Resource Management Planning Program: reduction of 
        $8.2 million for lower priority resource management planning 
        activities. In 2012, the BLM will focus on completing ongoing 
        planning efforts and continue developing strategies to improve 
        the efficiency of its planning process.
        <bullet>  Management of Lands and Resources Appropriation: 
        further reductions totaling $3.3 million in base funding of 
        several programs.
        <bullet>  Information Technology: $3.5 million reduction.
        <bullet>  Construction Program: reduction of $5.0 million in 
        project funding.
        <bullet>  A reduction of $600,000 reflects the discontinuation 
        of funding for two one-time congressional earmarks.
    The budget request also includes reductions that reflect the 
Accountable Government Initiative to curb non-essential administrative 
spending in support of the President's commitment to fiscal discipline 
and spending restraint. In accordance with this initiative, the BLM's 
budget includes a total savings of $22.0 million, including $11.5 
million in savings in 2012 against actual 2010 expenditures in the 
following activities: $5.5 million for travel; $3.2 million for 
advisory and assistance services; and $2.8 million for supplies and 
materials. These 2012 reductions build upon management efficiency 
efforts proposed in 2011 totaling $9.1 million in travel and 
relocation, information technology, and strategic sourcing; and bureau-
specific efficiencies totaling $1.5 million.
Conclusion
    The BLM's Fiscal Year 2012 budget request provides funding for the 
agency's highest priority initiatives, while making difficult but 
responsible choices for reductions to offset some of these funding 
priorities. Mr. Chairman, thank you for the opportunity to testify on 
the BLM budget request for Fiscal Year 2012. I will be pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. I appreciate both of you and your testimony.
    Traditionally as we start the round of questions, the 
Chairman begins with the questions. I am going to change that, 
at least for my side, and be the last one to go. So we will 
start a round of questions once again based on those who were 
here when we started the process by seniority with 
Representative Broun. You are recognized for five minutes.
    Dr. Broun. Thank you, Mr. Chairman.
    Director Abbey, as you know, some environmental and 
antienergy groups are pressing to have oil and gas leases 
canceled that were signed and issued to the successful high 
bidders following BLM public auctions. Secretary Salazar has 
stated publicly in connection with their own plateau leases 
that once leases are signed, they provide the buyers with a 
property right that government agencies are bound to protect. 
Do you stand by the Secretary's definitive statement made to 
the Grand Junction Daily Sentinel on August 12, 2009?
    Mr. Abbey. Well, Congressman, there may be some times----
    Dr. Broun. Sir, this just requires a yes or no answer. Do 
you stand by that or not?
    Mr. Abbey. Well, I am not sure there is a yes-or-no answer.
    Dr. Broun. Well, the Secretary made the definitive 
statement that once leases are signed, buyers are given a 
property right that government agencies are bound to protect. 
That is what he stated himself. Do you not support that?
    Mr. Abbey. Unless they are overruled by the courts.
    Dr. Broun. Do you agree that it is important for the 
government to stand behind its contracts with private 
individuals and companies?
    Mr. Abbey. I do.
    Dr. Broun. As the Director of BLM, do you and your agency 
intend to protect the private property rights of those who hold 
Federal oil and gas leases that have been signed and issued?
    Mr. Abbey. We routinely defend those actions in court.
    Dr. Broun. Thank you, sir. Please keep that up.
    Does BLM have any plans to cancel oil and gas leases that 
have been issued?
    Mr. Abbey. I am not aware of any at this point in time.
    Dr. Broun. Is it correct that the Mineral Leasing Act 
requires the BLM to issue oil and gas leases within 60 days 
following payment by the successful bidder of any remainder of 
the bonus bid in the first year's annual rental?
    Mr. Abbey. Sir, we routinely have to address protests that 
come about as a result of our leasing activities prior to 
issuing those leases.
    Dr. Broun. Doesn't the Minerals Leasing Act require the BLM 
to issue those leases----
    Mr. Abbey. It does provide a time frame.
    Dr. Broun. Since the BLM leases Federal oil and gas 
resources underlying national forests, do you intend to notify 
the Forest Service that the Department of the Interior will not 
cancel Federal oil and gas leases that have been issued for 
Forest Service parcels?
    Mr. Abbey. Sir, we routinely defer to the surface managing 
agency to make that determination.
    Dr. Broun. Well, are you notifying them that those leases 
will be upheld?
    Mr. Abbey. Which leases are you specifically asking?
    Dr. Broun. Those that have been signed and given out.
    Mr. Abbey. There are occasions when the Forest Service or 
other surface managing agencies may determine that the leasing 
of those lands are not appropriate.
    Dr. Broun. Well, the Secretary said that people have a 
property right, and that the government should uphold those 
leases, and you just indicated that you agreed with that. Mr. 
Abbey, a local forest supervisor in Wyoming recently signed a 
record of decision in which she decided, she decided, that the 
government should cancel oil and gas leases that have already 
been issued. Since BLM leases Federal oil and gas resources 
underlying the national forest, how do you intend to notify the 
Forest Service that the Department of the Interior will not 
cancel those Federal oil and gas leases that have been issued 
for Forest Service parcels?
    Mr. Abbey. I would not notify the Forest Service of that 
fact. I would defer to the Forest Service to make that 
decision.
    Dr. Broun. So then you have testified incorrectly. You do 
not uphold those property rights that the Secretary said should 
be held inviolate?
    Mr. Abbey. Sir, what I specified is that unless there is a 
court ruling or decision that would overturn those leases, or 
an appeal for that matter.
    Dr. Broun. Well, this Forest Service supervisor in Wyoming 
just signed a record of decision saying that what you just 
stated is not fact.
    Mr. Tidwell, what is meant by landscape planning in the 
land management planning rule? The definition provided in the 
draft rule is vague at best, would appear to all but ignore 
personal property rights. How do you envision the Forest 
Service managing at the landscape level irrespective of 
ownership or of the artificial boundaries--irrespective of 
ownership or other artificial boundaries as quoted from the 
plan?
    Mr. Tidwell. Our proposed planning rule, just like our 
current planning rule, deals with the National Forest System 
lands. Under the proposed rule we want to make sure that we are 
considering what else is going on on adjacent lands; to be 
aware of what plans the counties have, what plans the States 
have, even what plans adjacent private landowners have so that 
those assessments can be factored into the management of the 
national forest. We do not make any decisions for private land.
    Dr. Broun. Do you believe that property lines are, quote, 
``artificial boundaries,'' unquote?
    Mr. Tidwell. No, I do not.
    Mr. Bishop. Thank you. I thank the gentleman. Time has 
expired.
    I failed to recognize the gentleman from Michigan who has 
joined us, and I ask unanimous consent that he be allowed to 
join us on the dais and participate. Hearing no objection, 
thank you. We will get to you eventually here.
    Now I turn to the distinguished Ranking Member from Arizona 
for questions.
    Mr. Grijalva. Thank you, Mr. Chairman.
    To both gentlemen, how would a government shutdown impact 
each of your respective agencies if that was to come to pass? 
Briefly, if you can.
    Mr. Tidwell. Well, I can reflect on what occurred back in 
1995 when we did have a shutdown. And for the Forest Service, 
we plan to keep on our emergency services, our law enforcement, 
continue to respond to wildfires. But basically our facilities 
will be closed. Access to the national forests will be limited. 
Recreation facilities will, of course, be closed down. And 
depending on which contracts we have operating, we will 
probably need to shut down at least some of those contracts.
    Mr. Abbey. Congressman Grijalva, certainly I do not believe 
that a shutdown serves anyone very well. Having said that, we 
have been asked by the Office of Management and Budget to 
review our emergency response plans as a contingency in case 
there is a shutdown. As Chief Tidwell indicated, we would 
continue to provide emergency services to make sure that such 
actions like inspections and enforcement of ongoing oil and gas 
operations are monitored to ensure safety and environmental 
protection of these lands. But in many cases actions for 
permitting new activities on public lands would cease.
    Mr. Grijalva. Thanks.
    Director Abbey, during the full committee hearing on the 
wildlands policy, you were asked whether you had statutory 
authority to elevate wilderness above all other uses of public 
lands. Is that what the Director's Order 3310 does?
    And the other question: What authority did former Secretary 
Norton have to remove wilderness from the possible uses of 
public lands?
    Mr. Abbey. Let me answer your second question first. 
Secretary Norton's settlement agreement, as I understood it and 
read it, indicated that under section 603, the Federal Land 
Policy and Management Act, that that statutory authority had 
expired, and that authority was no longer available to 
inventory public lands and to designate new wilderness study 
areas.
    But what that settlement agreement did not do is take away 
the statutory authority that we do have under Federal Land 
Policy and Management Act under sections 201 to conduct routine 
inventories of public lands and under section 202 to actually 
conduct land-use planning so that we could identify those lands 
that are deserving of special protection. In addition to 
sections 201 and 202, there are also sections 102, 103 and, I 
think, 302 of the Federal Land Policy and Management Act that 
provides clear directions to us relative to conducting 
inventories of public lands and then using that information as 
part of our land-use planning process.
    Congressman Grijalva, I did not do a very good job in 
responding to that question the first time it came up in front 
of the full committee because I stated the obvious, that we 
already had statutory authority under Federal Land Policy and 
Management Act. When the question was raised again, the 
question was, what statutory authority do you have to elevate 
wilderness over other multiple uses, and I couldn't think of 
any authority that would do just that.
    But the Federal Land Policy and Management Act does provide 
us, through our land-use spending process, to prioritize 
certain uses. We do so routinely. For example, through land-use 
planning we designate crucial or critical winter habitat for 
deer or antelope or other species. We designate utility 
corridors, which take priority over other multiple uses out 
there. We routinely identify other uses that take place on 
these public lands through that land-use planning process, 
including designation of renewable energy development zones for 
solar or wind. It takes priority over other multiple uses. So 
we do have statutory authority to do just that.
    Mr. Grijalva. Thank you.
    And as my time runs out, Chief Tidwell, I think my 
colleague from Arizona will probably follow up with that 
question, and it has to do with a situation in northern 
Arizona, 12-, 1,500 homes. The cooperation and consultation of 
the Forest Service is urgently needed in terms of fire 
protection, and it is a point that I am sure my colleagues will 
pursue as well. But it is something that all of us in the State 
are anxiously encouraging your agency to work with that 
community.
    With that, let me yield back.
    Mr. Bishop. Thank you. Yields back.
    The gentleman from Colorado Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    For Mr. Abbey and the BLM. Director Abbey, I am extremely 
concerned about the policies and actions of the Bureau of Land 
Management, which actively discourages investment and drilling 
for oil and gas on Federal lands. As a member of Colorado's 
congressional delegation, I am interested in ensuring timely 
development of the Roan Plateau. In 1997, members of the 
Colorado congressional delegation amended the National Defense 
Authorization Act, also known as the Transfer Act, to transfer 
Navy Oil Shale Reserves 1 and 3, located in Colorado and 
referred to as the Roan Plateau, from the Department of Energy 
to the Bureau of Land Management. The Transfer Act specifically 
directed the Department of the Interior to, quote, unquote, 
``enter into leases as soon as practical with one or more 
private entities for the purpose of the exploration, production 
and development of petroleum,'' unquote. The Transfer Act also 
stipulates that such lands are to be managed in accordance with 
the Federal Land Policy and Management Act and other laws 
applicable to public lands.
    Director Abbey, would you please provide the committee with 
your interpretation of the actions pursuant to the Transfer Act 
which Colorado directed the BLM to undertake with respect to 
Navy Oil Shale Reserves 1 and 3, otherwise known as the Roan 
Plateau?
    Mr. Abbey. Well, Congressman, as you are well aware, the 
Bureau of Land Management did conduct land-use planning of the 
Roan Plateau and identified certain areas that were appropriate 
for leasing. As a result of that land-use planning decision, it 
has been litigated, and we have been working through that 
litigation to try to resolve with the plaintiffs the issues 
that they raise. We have been unsuccessful in reaching a 
settlement relative to that litigation, and hopefully we will 
continue the dialogue. If not, we will go to court and defend 
our actions relative to the decisions that we had previously 
reached.
    Mr. Coffman. Let me just interrupt you on one point, and 
that is that litigation does not prevent the BLM from moving 
forward as there has been a final record of decision. These 
decisions are in full force and effect regardless of 
litigation, and the BLM could move forward if you chose to do 
so; is that not correct?
    Mr. Abbey. If we chose to do so, that is true.
    Mr. Coffman. Well, I am sorry. Then why aren't you moving 
forward? You are using the litigation as an excuse not to move 
forward.
    Mr. Abbey. Well, I think we are taking a wise approach to 
moving forward and doing the right thing right, and that is to 
the best of our ability to make sure that we can defend the 
actions of moving forward with the leasing program that we had 
approved through that land-use plan.
    I don't think it serves anyone well for us to go forward, 
issue leases, and then have a court of law come back and say 
that those leases were issued illegally. So to the degree that 
we can resolve those issues, and we were very optimistic that 
we would be able to do that through the settlement 
negotiations, we were hopeful that we would reach a settlement 
that would allow some of the leases to go forward.
    Mr. Coffman. Mr. Abbey, the Wildlands Order has ruined the 
business model that the oil and gas industry was subject to for 
decades, the Federal land-planning process taking away any 
incentive to invest real capital, intellectual capital and 
time. The Wildlands Order provides the BLM with the unilateral 
ability to strip away the property rights and make any capital 
that has been invested worthless. Under these circumstances, in 
your opinion, why would an oil and gas operator invest in 
Federal lands when there is no longer any certainty with 
respect to leases that the company has owned for years?
    Mr. Abbey. Well, I think there is quite a bit of incentive 
for the oil and gas industry to continue to pursue leases on 
public lands. Many of the companies are making all-time profits 
as a result of leasing and developing off public lands.
    Congressman, let me just say that the wildlands policy does 
not affect any existing lease that has already been issued. The 
wildlands policy, as designed to be implemented, requires us to 
go forward, inventory public lands, identify which of those 
public lands may possess wilderness characteristics, and then, 
through a very public planning process, make a determination of 
whether or not any of those lands with wilderness 
characteristics should be designated as wildlands. There has 
been no wildlands designated as a result of the Secretary's 
order at this point in time.
    Mr. Coffman. What steps has the BLM undertaken in the last 
2 years to encourage onshore oil and gas development on Federal 
lands? Please provide examples.
    Mr. Abbey. Well, first and foremost, we have implemented 
some oil and gas leasing reforms to provide greater certainty 
to the industry itself that the lands that we offer for leases 
are the ones that have the greatest chance of being leased and 
withstanding any kind of appeal or litigation that may result 
from that leasing action, and that those lands are likely to be 
developed in a more timely manner than some of the other lands 
that have been previously leased in the past.
    Mr. Bishop. Thank you. Your time has expired. We will 
either follow up or have something written later on. Thank you.
    I recognize the gentleman from Michigan Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chief Tidwell, I appreciate the commitment in your budget 
to the Land and Water Conservation Fund. In Michigan, LWCF has 
been vital to implementing a number of conservation efforts I 
have been proud to have worked on in this committee, including 
the protection of Grand Island--you have done a marvelous job 
up there, by the way--and protecting the interest of the 
inholders. They are happy, I think. The whole area has 
benefited from that. But I do appreciate your sensitivity to 
the inholders there. And also the Michigan wild and scenic 
rivers bill and my wilderness bill. They were all done, I 
think, in Dan's district there. But your predecessor, at least 
by tacit assent, allowed those bills to go through. And I am 
glad you are here today because I know of your deep interest in 
that area up there.
    Can you tell us about the importance of the LWCF 
investments you propose and why this is the right time to make 
them?
    Mr. Tidwell. Congressman, thank you. When we looked at our 
proposed full funding for LWCF, it was based on what we have 
heard from the public, strong support for this program. And 
there are a couple of key objectives. One, the acquisition 
allows us to acquire key inholdings, critical habitat, often 
providing recreational access.
    The other part of our program is our Forest Legacy Program 
where we have the opportunity to work with willing landowners 
to acquire a conservation easement that allows them to stay on 
their land, to be able to keep that ranch working, to be able 
to keep that private forested land forested.
    That is the two key parts of this program. It has strong 
support. It is relatively small areas that we acquire each 
year. And also the other benefit is it reduces our 
administrative costs of management. When we can acquire an 
inholding, it just makes it a lot easier for us to be able to 
carry out our restoration work, to deal with wildfire, 
eliminate boundary lines that have to be maintained. So there 
is always an overall cost reduction through this program.
    Mr. Kildee. I really was impressed by the way you worked 
with the inholders on Grand Island. You came up with a rather 
unique way of protecting the inholders which satisfied both 
your interests and their interests, and it really came from--
not from me. You came up with a plan which they said, bingo, 
when you announced that. But I appreciate the fact that you 
spent time with the inholders in trying to work out something 
that would be satisfactory.
    But I just want to commend you for what you do. I walk 
through--not as much as I used to 34 years ago--but I do walk 
through the wilderness areas and find that you have done a good 
job keeping those lands just as they came from the hand of God. 
And thank you very much.
    Mr. Tidwell. Thank you.
    Mr. Bishop. The gentleman yields back.
    Mr. Kildee. I yield back. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Young, I understand you have a UC request.
    Mr. Young. Mr. Chairman, because of the length of this 
hearing, I have another hearing down there, I would like to 
submit for the record my questions for the Forest Service and 
the so-called BLM.
    Mr. Bishop. Without objection, so ordered.
    The Chair recognizes Mr. McClintock for five minutes.
    Mr. McClintock. Thank you, Mr. Chairman.
    Director Abbey, let me continue what Congressman Young has 
begun. Do you have an inventory of all oil and gas resources on 
BLM lands?
    Mr. Abbey. Have we done an inventory of all oil and gas 
resources? Is that your question? We have not.
    Mr. McClintock. You have not.
    Mr. Abbey. No. But we have worked very closely with the 
USGS and the industry themselves to help----
    Mr. McClintock. So you can't tell me, for example, how much 
in oil reserves we have on Bureau of Land Management land?
    Mr. Abbey. I don't have that information today, but I do 
believe USGS and others may have that information.
    Mr. McClintock. And yet you are doing an extensive 
inventory of wilderness areas. So you are committing enormous 
resources to inventorying wilderness areas, but not to 
inventorying the oil and gas resources on your lands?
    Mr. Abbey. I am not sure we are expending extraordinary 
expenses to inventory public lands for wilderness, but we are 
inventorying public lands for wilderness characteristics.
    Mr. McClintock. Well, getting to Mr. Young's implied point 
then, you are no longer the Bureau of Land Management, you are 
the Bureau of Land Closures. Why shouldn't we rename your 
agency to reflect your actual work?
    Mr. Abbey. Congressman, I think all you have to do is look 
at the allocations of public lands to the various extractive 
industries for the purposes and come to your own conclusion 
that we are fully multiple use.
    Mr. McClintock. Chief Tidwell, how much board-feet per year 
are we currently harvesting from Forest Service lands?
    The Tidwell. In Fiscal Year 2010, we harvested a little 
over 2.5 billion board-feet.
    Mr. McClintock. And yet 6 billion board-feet is what is 
necessary as a minimum to provide for healthy forests. In fact, 
6 billion board-feet is half of what we were harvesting from 
our national forests in 1980 and the minimum needed for fuel 
reduction for healthy forests.
    Do you have an explanation of the difference? Where we are 
harvesting a little over 2 million board-feet in 1980, 12 
million--a billion, I should say, board-feet, can you explain 
the difference?
    Mr. Tidwell. The difference today is we are focused on 
restoring our Nation's forests. And so we are focused on doing 
the work that needs to be done to increase the resiliency to 
these systems to withstand the stresses.
    Mr. McClintock. Again, overpopulation is an unhealthy 
condition for any living community, be it timber or animal 
populations. A forester long ago warned me that that excess 
timber is going to be taken out of the forest one way or 
another. It is either going to be burned out, or it is going to 
be carried out, but it will come out. We used to carry it out, 
and that not only provided for healthy forests, but also a 
healthy economy. Under your stewardship, we are doing exactly 
the opposite, and I would like an explanation.
    Mr. Tidwell. Congressman, there are greater needs out 
there, and we are able to accomplish. Last year we restored 
about 2.5 million acres, and we definitely have a need to do 
more. We treated about 3.2 million acres to reduce hazardous 
fuels. There is a need to do more. We have a backlog of over 40 
million acres that we need to treat hazardous fuels on.
    Mr. McClintock. With all due respect, I have hundreds of 
sawmill families that are out of work today because of your 
policies. I would call that a distress. We have had much more 
intense forest fires over the past few years in my neck of the 
woods specifically because of the failure of the Forest Service 
to provide the sound forest management practices that were 
employed in 1980 when we were harvesting 12 billion board-feet 
a year out of the forests of this country.
    What is the reduction of national forestlands open for 
domestic grazing? Actually, when--we talked about this before. 
We have seen a dramatic reduction in the amount of Forest 
Service land that is available to grazing. When are you going 
to reverse that policy?
    Mr. Tidwell. The majority of our lands, the National Forest 
Service lands, are still available for grazing. I do believe 
that in your State, in your district, there are a significant 
number of allotments that are vacant. Based on a variety of 
reasons, some of the permittees choose not to stock those 
allotments. We feel that grazing is one of the multiple uses 
that we need to maintain, not only to be able to maintain the 
ranch----
    Mr. McClintock. And yet the employment of these lands for 
grazing is going down, not up.
    Mr. Bishop. I am going to have to--your time is allotted on 
that. I appreciate that. We will follow up with other 
questions, or you can do that written as well.
    Representative Sarbanes from Maryland is recognized.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate it.
    Thank you all. We appreciate your efforts to manage these 
lands in a sensible way and the President's efforts in his 
budget to make sure that we are paying attention to our 
priorities.
    There is a theme that--it is a running theme going back for 
as long as I have been here, which is not that long, a few 
years, around the issuance of permits, any kind of permit. So 
you have one narrative that says, why is the government not 
issuing more permits, whether it is for grazing, as we just 
heard, or often the discussion is about we need more permits 
issued with respect to the oil and gas industries so that they 
can enhance their production and so forth. So that is one 
narrative. Then there is another narrative which says, well, 
there are plenty of permits being issued. The problem is--in 
leases and so forth. The problem is that they are not being 
used. And, of course, these competing narratives are going to 
heat up now because as gas prices go up, everybody goes into 
their camps and starts to make their argument about what we 
should do in response to that.
    But as far as I can tell, it is the case--and I would like 
you to speak to it--maybe, Director Abbey, you are in the best 
position to do this--that there are plenty of permits and 
leases that have been issued to the oil and gas industry on 
public lands that are not being used right now by the industry. 
In fact, it has gotten to the point where you have, I think, 
proposed putting some sort of a fee, a per-acre fee, on these 
unused permits to try to encourage industry to actually take 
advantage of them.
    So given what is coming, I think, in this debate, can you 
speak to that issue of the permits that are not being used that 
the industry currently holds?
    Mr. Abbey. I would be happy to, and it is a good question. 
As I shared with members of this committee before, the Bureau 
of Land Management has issued 41--has issued leases on 41.2 
million acres of public lands. Of that 41.2 million acres, 
approximately 12.2 million acres are under production. So there 
are a number of acres that have been leased that have not been 
produced.
    We have proposed as part of the 2012 budget proposal to 
implement a $4-per-acre diligence fee on all new leases to 
encourage the industry who are seeking these leases to actually 
develop those leases in a timely manner and to provide a 
production so that we could address some of our national needs 
as we see them today.
    The other aspect of our task and one of our 
responsibilities that we have is to move forward aggressively 
and try our best through the statutory authorities that are 
invested in us to diversify our Nation's energy portfolio, not 
only to make appropriate public lands available for 
conventional energy sources, but also to move forward and make 
appropriate public lands available for renewable energy such as 
solar, geothermal, wind and biomass.
    So again, we all have a role to play, and the Bureau of 
Land Management understands the role that we have to play, and 
we are doing our best to provide energy resources to this 
Nation.
    Mr. Sarbanes. So I am curious. There must be theories in 
your Department as to why, of the 41.2 million acres for which 
permits have been issued to the industry, only 12.2 million are 
in production. Can you just give me a sense of that?
    Mr. Abbey. Well, from our perspective, a lot is driven by 
the market. If the market is low, you are not going to see a 
lot of activities on those areas that have been leased. If the 
market is as we see it today, very high, then you are going to 
start seeing actions relative to permits being--or applications 
for permits to drill to be filed with the Bureau of Land 
Management.
    Mr. Sarbanes. So as people get worked up going forward 
about the fact that we need to turn to our own resources here 
in this country and take advantage of what is available to us, 
they should not be directing that advocacy toward the 
government saying, why won't you issue more permits; they 
should be turning it toward the industry and saying, why won't 
you produce with the permits that you already have?
    Mr. Bishop. The time has expired.
    Mr. Sarbanes. I yield back.
    Mr. Bishop. I will give you one sentence to answer that if 
you want to, or we can wait and come back to it.
    Mr. Abbey. Certainly the public is going to blame 
everybody, and rightly so, because the price of oil is 
certainly high, and it is affecting all of us. As we look 
forward to again what the Bureau of Land Management is doing, 
last year we leased 3.2 million acres or thereabouts for oil 
and gas leases.
    Mr. Bishop. Thank you.
    I recognize the gentleman from Colorado Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I appreciate Chief 
Tidwell and Director Abbey for being here as well.
    I would like to follow up just a little bit, Director 
Abbey. Could you refresh my memory? There were 41 million 
acres, did you say, under lease?
    Mr. Abbey. We have leased 41.2 million acres, yes.
    Mr. Tipton. And 12.2--are all of the permits up to date; 
meaning everyone who has applied for a permit, have you 
approved them or rejected them?
    Mr. Abbey. We do have some backlog relative to applications 
for permits to drill in some of our district offices.
    Mr. Tipton. There is a backlog. And I think that is an 
important note for us all to understand. There is a big 
difference between leases and permitting. We aren't able to 
produce unless a permit is actually issued; is that correct?
    Mr. Abbey. That is true.
    Mr. Tipton. I had a question in regards to the wildlands 
policy. I think that you just made the comment that it does not 
affect any existing lease in terms of your opening testimony. I 
just completed a tour of the Third Congressional District, 
where we have a little better than 8.7 million acres of public 
lands just in my district right now. And I was informed by the 
BLM actually that in regards to lateral drilling, where you are 
going off public land over to BLM land, that that is going to 
be restricted under the wildlands policy. Would you care to 
comment on that?
    Mr. Abbey. I would say that that is a wrong description 
that someone gave to you.
    Mr. Tipton. That is out of your office. We will follow up 
with you on that. I appreciate that.
    Mr. Abbey. Share with me the name, and I will be happy to 
contact that individual myself.
    Mr. Tipton. You bet. I appreciate that.
    You had talked a lot about your budget saying that for 
wind, solar, biomass--I liked the biomass concept because we 
have a terrible--as I am sure the Forest Service recognizes--
threat of wildfire, particularly in Colorado with the bark 
beetle infestation. But I would like to revisit a question that 
we had had with our last panel in regards to visiting with the 
Department of the Interior. Have you done any cost-benefit 
analysis in regards to developing an expansion of resources for 
wind and solar development?
    Mr. Abbey. You are asking me----
    Mr. Tipton. Yes, sir.
    Mr. Abbey.--have we done a cost analysis?
    Mr. Tipton. Cost-benefit analysis of dollars you are 
investing.
    Mr. Abbey. We have done some economic analysis as part of a 
programmatic EIS for both wind as well as what we are doing 
right now for solar.
    Mr. Tipton. Have you found those costs run far higher than 
coal, natural gas in terms of generating electricity?
    Mr. Abbey. It depends upon what kind of methodology you 
use. Certainly they are at this point in time higher.
    Mr. Tipton. I would encourage you to fully develop that. I 
think in the interest of the American consumer right now, young 
families, senior citizens on fixed income, we all develop the--
all support the all-of-the-above proposal right now. But this 
is a regulatory tax increase that we are effectively going to 
be passing on to the American people in terms of the costs of 
energy, and I think through our public resources we need to be 
working on those backed-up permits and maybe directing some 
more dollars to actually to be able to develop those resources 
here at home, because we do have a critical problem going 
forward.
    Thank you, Mr. Abbey.
    Chief Tidwell, I had a couple of questions for you. As you 
know, Coloradans, we have been struggling with the bark beetle 
infestation in our forests for some time now. Are you doing any 
additional measures, or are there any additional measures that 
you feel ought to be implemented to stop the spread of the bark 
beetle?
    Mr. Tidwell. Last year we significantly increased our 
efforts to deal with the bark beetle infestation there in 
Colorado, and we plan to maintain that level for the 
foreseeable future. Hopefully in the next couple of months, we 
will release our strategic plan to deal with bark beetle 
infestations throughout the West, and one of the things that 
that strategy will call for is an increased level of dedication 
within our constrained budget to address these problems. As you 
well know, in Colorado, public safety is the number one issue.
    Mr. Tipton. I want to get this one in, Chief, if I may. 
There are several oil and gas leases in White River National 
Forest that are in compliance with NSO stipulations and 
existing Colorado roadless rule. However, the Acting Regional 
Forester asked the BLM to pull the parcels from sale, citing 
uncertainty about the pending Colorado roadless rule. Why is 
interagency confusion regarding the roadless rule allowed to 
delay for the lawful leasing of these parcels?
    Mr. Tidwell. It is my understanding we are responding to a 
request from the State of Colorado to not go forward with those 
leases until we had completed the Colorado roadless rule. As to 
exactly why the State requested that, I don't know, but I am 
going to find out, and I will be glad to get back to you on 
that.
    Mr. Tipton. Great. I would appreciate that.
    Chairman, I yield back.
    Mr. Bishop. Thank you.
    I recognize the gentleman from Oregon Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Chief Tidwell, the integrated resource restoration budget 
line item--this is something you proposed last year--was not 
authorized by Congress. Now, I am a fan of not having too many 
stovepipes and too much bureaucracy and spending money well, 
but I am concerned about a number of very diverse programs that 
are being lumped into this account which have competing needs. 
And I am concerned about the transparency and accountability 
that might result from this. And if we were to approve your 
version of the integrated resource restoration account, would 
the Forest Service continue to establish and monitor progress 
toward completing specific targets on timber roads, watershed 
restoration and all of the diverse things that are in there? I 
am a bit concerned about this.
    Mr. Tidwell. Congressman, yes, we will. That was one of the 
criticisms we heard last year when we proposed this, so we 
changed our proposal so that we will continue to provide 
targets to our regions for the traditional accomplishments like 
board-feet, miles of stream improved, acres of wildlife habitat 
improved, but at the same time to be able to track the overall 
change in the condition of the watershed. We feel that by 
tracking both of these, the traditional targets, plus this 
overall watershed measure, that we will be able to do a better 
job to be able to show you the difference that we are making on 
the ground, and at the same time we will be able to be held 
accountable for the work that is getting done in those 
traditional targets.
    Mr. DeFazio. So you can tell me that, should we approve 
this, you fully expect it will bring efficiencies that will get 
more money on the ground, more jobs created, more work done 
toward those goals.
    Mr. Tidwell. Yes. It will create efficiencies for the 
agency so that we can do a better job to put together 
integrated projects that are going to reduce some of our 
planning costs, some of the time our folks spend, and result in 
more jobs, more work being accomplished.
    Mr. DeFazio. OK. I am all for dispensing with unnecessary 
bureaucracy but still will have concerns here.
    The President included $328 million of discretionary 
funding for the Secure Rural Schools Initiative for Fiscal Year 
'12. And I appreciate the fact that he proposed it in his 
budget. He recognizes the importance of this. He is attempting 
to deliver on campaign promises he made for a longer term 
solution for this problem, but I am wondering, where is that 
money going to come from in your account?
    Mr. Tidwell. The $328 million is out of our discretionary 
budget request; and so it was a matter of making some trade-
offs, reducing other programs so that we could provide that 
level of funding for the first year.
    We want to work with the Subcommittee to pursue some 
options for mandatory funding. I know that that is really 
important to the counties, and I understand that, and I think 
it is essential. So we want to work with you to find other 
sources. But, as you mentioned, to be able to take $328 million 
and take it out of our budget, especially in these economic 
times, it does demonstrate the importance of this program.
    This is not the time for us to be able to stop Secure Rural 
Schools. I believe that there has never been a greater need 
with our counties than right now with the challenges that they 
face.
    Mr. DeFazio. OK. Thank you, and I look forward to working 
with you on that, particularly if you have other ideas for 
offsets and sources for a longer term program. I worked through 
that a lot with the last Administration. We never quite got 
there, but I would be happy to engage in that discussion.
    Director Abbey, you know, I guess this may be long, but if 
you can really briefly update me on the agency's progress 
toward developing a long-term forest management plan on the ONC 
lands. You have about one minute.
    Mr. Abbey. Well, sir, as you know, we are moving forward 
aggressively with implementing some pilot programs in the ONC 
forest in western Oregon to demonstrate how forest management 
practices could be achieved as far as achieving some of our 
mutual goals through timber harvesting and appropriate timber 
harvesting. We are very optimistic that those programs will be 
implemented at the end of this calendar year and so that we can 
learn from those pilots and design a program that will be 
sustainable over the long term in western Oregon.
    Mr. DeFazio. OK. I think we will have to continue that 
discussion. My time has expired.
    Mr. Chairman, I will stay for another round.
    Mr. Bishop. Thank you. There will be another round.
    The gentleman from Idaho is recognized.
    Mr. Labrador. Thank you, Mr. Chairman.
    Mr. Abbey, it is good to see you again.
    When Congressman Simpson and I met with you last month, one 
of our concerns was that the land previously studied for 
wilderness by Congress was subsequently released to then be 
locked up under your new wild lands authority; and during the 
hearing, during the meeting you assured us that BLM would take 
into account congressional action of this kind to minimize such 
outcomes. In fact, you noted in your last hearing here that you 
had written into the guidance documents directions to take into 
account congressional intent to avoid those kinds of things 
that happened.
    My question is, under section 201 of the Federal Land 
Policy Management Act of 1976, under whose authority you 
purport to act. It states that land use plans shall be 
developed for the public lands regardless of whether such lands 
previously have been classified, withdrawn, set aside, or 
otherwise designated for one or more uses. Doesn't this 
statutory declaration conflict with your stated goal to 
consider congressional action when re-evaluating areas that 
have been considered for wilderness classification?
    Mr. Abbey. Congressman Labrador, I do not believe it 
conflicts. Under 201, we conduct routine inventory of public 
lands for many, many purposes. In the case of wilderness 
release language, Congress will designate certain areas as 
wilderness and in some cases will release wilderness study 
areas from further consideration for designated wilderness.
    As I testified to in the previous hearing, we would 
certainly defer to the language as a result of those wilderness 
legislation and draw how we would move forward with the actions 
and how we would address such lands with wilderness 
characteristics and future planning. So I do not see that there 
is a conflict. We would, again, take into consideration the 
fact that Congress has reviewed these areas, they have chosen 
not to designate them as wilderness, and that would be a factor 
that we would consider in our land use plan.
    Mr. Labrador. But you say that it is a factor. I mean, how 
big of a factor? Is this one of 500, one--I mean, that doesn't 
give me a lot of assurance if you just say that it is just a 
factor.
    Mr. Abbey. It is a factor, but it is a very large factor, 
especially if the legislation was recent.
    In the case of Arizona, for example--I think I might have 
used this in my previous testimony--where we had a wilderness 
bill passed in Arizona, I believe it was 1986, there were areas 
that were designated as wilderness. There were areas that were 
released--wilderness study areas that were released as a result 
of that legislation. Given the fact that it has been 20-plus 
years since that legislation, we would go back and revisit 
whether or not those areas possessing wilderness 
characteristics are deserving of designation as wild lands.
    Mr. Labrador. OK. How long was this policy in development?
    Mr. Abbey. The policy itself?
    Mr. Labrador. The wild lands policy.
    Mr. Abbey. We first started working on the policies back in 
the fall of 2009.
    Mr. Labrador. And at any time during that development did 
you consider coming to Congress for collaboration or for 
assistance or just to discuss it with Congress?
    Mr. Abbey. We did not, and the reason why is that we never 
knew whether or not the Department would approve such a policy.
    Mr. Labrador. Since this is a budget hearing, how much of 
your budget is taken up by litigation right now?
    Mr. Abbey. I don't have a figure, but I will say that there 
is quite a bit of litigation as a result of decisions that we 
make.
    Mr. Labrador. OK. Can you get that information to me?
    Mr. Abbey. I am not sure we track it, Congressman, but we 
will certainly pull together what we can.
    Mr. Labrador. OK. What expectation does the agency have 
concerning the staffing and budget requirements to carry out 
our wild lands policy?
    Mr. Abbey. We have existing staff that we would use to 
carry out and implement the secretarial order.
    Mr. Labrador. So you are not going to add any additional 
staff?
    Mr. Abbey. Again, I am not aware of asking for any 
additional staff to conduct that business.
    Mr. Labrador. So how are you going to be able to implement 
this policy without diverting from existing BLM missions?
    Mr. Abbey. Well, we redirect staff from other roles in 
order to help us implement the actions that are required under 
the secretarial order.
    Mr. Labrador. Thank you. I yield back.
    Mr. Bishop. The gentleman yields back.
    The gentleman from Arizona, Mr. Gosar, was here next.
    Dr. Gosar. Thank you very much, Chairman Bishop and Ranking 
Member Grijalva, for allowing me to speak this morning.
    Director Abbey, I want to start my questioning by asking 
you some valuable perspective you may have relating to your 
experience as Nevada State Director of the U.S. Bureau of Land 
Management.
    In 2004, Carson City, Nevada, suffered devastating 
wildfires which scorched over 8,700 acres across the entire 
west side of the city. The waterfall fire removed all 
vegetation on the steep mountains leading to threats from 
flooding and potential debris flows, as well as severe damage 
to surface water supplies. Carson City was able to get steady 
assistance from the Forest Service, Bureau of Land Management, 
and other Federal agencies to implement short- and long-term 
flood mitigation measures.
    We are facing a very serious and similar issue in my 
district in Coconino County due to the damage caused by the 
Schultz fire. Major flooding has occurred, similar to what 
occurred in Nevada. It seems as if my community can learn from 
the way the BLM, the Forest Service, and other relevant Federal 
Government agencies took accountability for the management of 
the public lands affected by the disaster and ultimately worked 
cooperatively with the State, the county, and the city and the 
community to implement a master plan for flood mitigation and 
other future forest treatment management and rehabilitation 
initiatives. Can you discuss the partnerships that were formed 
following the waterfall fire and how that coalition was able to 
address not only the short-term but the long-term risk in this 
expeditious manner?
    Mr. Abbey. Well, first, let me thank you for bringing up 
that example. Because it is how government should work and it 
is working with local entities, as well as members of public 
and the communities, to move forward and pursue our many, many 
common goals. Some of these wild land fires can be devastating, 
as Chief Tidwell knows and I all too well.
    In that particular case, in the watershed outside of Carson 
City, which is certainly so valuable to that community and the 
need for protection, everybody joined hands, working with State 
agencies, local governments, members of the public, and with 
stakeholders to move forward aggressively to try to secure that 
watershed and protect those valuable resources that had not 
been significantly impacted by that fire.
    In those resources that had been significantly impacted by 
that fire, we moved forward to aggressively rehab that resource 
so that the impacts from that fire could be mitigated to the 
degree possible. As a result of that cooperation and as a 
result of the work that took place there on the ground by many, 
many people, we were able to salvage that watershed and protect 
the water resources for that community.
    But I think, Congressman, there are examples throughout 
this Nation where people have come together to pursue those 
common goals and to, as you depicted, to accomplish some 
amazing things on the ground.
    Dr. Gosar. Well, I would look forward to having that 
cooperation with Mr. Tidwell as well, as we need that immediate 
type of response in my city.
    Mr. Tidwell, you stated to my colleague, Mr. McClintock, of 
your prioritization with our agency for proper forest health 
and maintenance. A prominent project of particular interest in 
my district and State is the Four Forest Restoration 
Initiative, which puts communities in Arizona back to work in 
management and thinning of our forest. This is a golden 
opportunity to push timeliness on benchmarks, contracts, and 
cooperations, as well as the drain on the Federal resources as 
far as money. How do you see us expediting this, these 
benchmarks, and getting this project initiated and getting 
contracts adjudicated?
    Mr. Tidwell. Well, through a couple of actions we are 
taking. We have directed additional resources to the region to 
be able to focus on the work that is being proposed. We have a 
tremendous opportunity here to establish a model about how we 
can restore large, large acres across the country. The 
collaborative approach that these folks have pulled together, I 
think, is just a model for the Nation. So we are going to 
direct additional resources.
    We are also working with CEQ to see if we can find ways to 
be more efficient with doing the necessary NEPA analysis so 
that we can take the work from the collaborative and be able to 
move forward much faster than we normally have done in the past 
with our environmental assessments, with the environmental 
impact statements. We have an opportunity here to learn how we 
can do analysis on like over 100,000 acres at one time and to 
be able to move forward at that level of work, and so it is a 
very exciting proposal. It is just representative of many of 
the collaboratives around the country, but this is one we would 
want to focus on to be able to move forward and use it as a 
model.
    Dr. Gosar. Thank you.
    I yield back the balance of my time.
    Mr. Bishop. I recognize the gentleman from Michigan for 
five minutes.
    Dr. Benishek. Thank you, Chairman Bishop, for allowing me 
to attend your Subcommittee meeting. I request consent to 
address the witness.
    Chief Tidwell, I am from the Upper Peninsula of Michigan; 
and I represent the northern 40 percent of the State, actually. 
We have a lot of trees in that area, three Federal forests. And 
I am new here. But people in my district, you know, my 
neighbors are loggers. I control private forests that I help 
manage.
    It seems to me that people in northern Michigan tell me 
that the Federal forest, the cutting has diminished. The forest 
is actually overmature, and that it needs more cutting. I had 
some people in from the Forest Service in my office, and they 
basically told me they couldn't open more land to cutting 
because they didn't have it in their budgets. So, you know, in 
view of the fact that cutting trees down usually pays for 
itself, I am just wondering why we don't have it in the budget.
    Now I understand you said you want the forest to be 
sustainable, but we are cutting the forests of northern 
Michigan at far below the sustainability rates and there are 
jobs involved here. A lot of people in my district depend on 
the forest for their livelihood, not only by cutting it down 
but for recreational use. And I would like to know what the 
story is on why it is not budgeted in the Department for them 
to--is that true? Or what can we do about getting more of our 
trees cut down to make the forest healthier and continue to be 
self-sustaining?
    Mr. Tidwell. Congressman, there are needs throughout this 
country in every State, in every region that we work with. 
There are needs to do more work, to do more restoration, to 
remove more timber. More biomass needs to be removed from our 
ecosystem.
    What we have tried to do with our budget request is we put 
together a mix, a mix of funds to be able to do the entire 
mission. And part of that is the restoration. That is one of 
the reasons we are proposing the integrated resource 
restoration line item, so we feel we can gain some efficiencies 
to be able to get more work done. Also, to pursue the 
opportunities to take on planning on a much larger scale so we 
can increase our efficiencies to be able to finish the analysis 
on much larger areas so that we can get forward doing more 
work.
    The other thing that we are continuing to pursue is the use 
of stewardship contracting. It is a tool that allows us to be 
able to retain the receipts from that, the biomass that is 
removed, and be able to use that to address the restoration 
needs, whether it is new trails, deal with drainage on roads, 
new bridges, et cetera. Those are the things that we are 
focused on.
    But you are correct. There is more work that needs to be 
done in your district, just like there is throughout, I think, 
almost every place we manage.
    Dr. Benishek. Why don't we issue--why don't we start 
cutting these trees down? I don't understand why, if it makes a 
profit, that we are just not doing it. I mean, they used to do 
it. They used to cut more, and now we are not. So there has got 
to be a change in policy rather than a lack of resources, in my 
estimation.
    Mr. Tidwell. Well, there isn't a profit, and that is not 
what we focus on. We focus on doing the work that needs to be 
done, and that is what drives our budget request.
    And so, and especially in today's market, you know, we are 
at some of the lowest prices in our timber market today that we 
have seen in many years. It did go up a little bit the last 
year, but it is at a very low level. In fact, exports have 
increased from private land because of the lack of the market 
in this country. So part of that is the market.
    But for us to be able to do more work, we can find more 
efficiencies in our processes, be more efficient in our 
planning that needs to be done, or we can find ways to dedicate 
more budget resources to get more work done.
    Dr. Benishek. I wish you would do that in northern 
Michigan, because there are so many people that depend on this 
for jobs. I mean, we still cut trees in the private land, and 
people are able to afford it and make money and pay their taxes 
on their forest land. I don't see why we can't do it here.
    I mean, I am all for good stewardship of the land, but when 
you are making money you should be able to sell the trees and 
pay for the bidding out of the forests. You are going to make 
that much money, and the forest ends up being healthier. So I 
would, please, ask you to direct your priorities to use our 
resources more wisely, even if it involves cutting more of them 
down.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    I recognize the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman; and thank you, Chief 
Tidwell and Director Abbey, for taking the time to testify 
before this Subcommittee today.
    Chief Tidwell, as you may know, a large portion of the 
Wayne National Forest is in my district in southeastern Ohio. 
The forest covers over a quarter million acres of Appalachian 
foothills, contains over 300 miles of hiking and all-terrain 
vehicle riding, mountain biking or horseback riding trails. 
Furthermore, there are nearly 120 miles of all-terrain vehicle 
riding trails in the Wayne National Forest.
    According to a study by Ohio University, the off-highway 
vehicle industry has a direct economic impact of over $1.8 
million in 2008 in southeastern Ohio. It is safe to say that 
this number will increase as our economy begins to recover and 
more people come out to enjoy the off-road vehicle trails.
    The Ohio University study concluded that the off-highway 
vehicle industry provides substantial economic benefits to 
southeastern Ohio. Furthermore, as the industry continues to 
mature, the direct impact will surely increase.
    With that being said, would you please briefly comment on 
how the 2012 proposed budget reflects that the Forest Service 
is a willing partner when it comes to all responsible users, 
including responsible motorized recreation access to our 
national forests?
    Mr. Tidwell. In our 2012 budget request, we have asked for 
an increase in recreation funding to help address some of the 
opportunities we have for recreation and motorized recreation. 
We recognize, as you have pointed out, the significance of the 
economic opportunities. In fact, we estimate there are over a 
quarter of a million jobs that are associated with recreation 
activities just on the national forests around the country. It 
is essential. It is essential for the communities that are near 
these national forests, and it is essential for our quality of 
life to provide these recreational opportunities. So that is 
one of the reasons we have asked for additional funding in our 
recreation budget for 2012.
    Mr. Johnson. Thank you.
    I understand that the Wayne National Forest has a 
memorandum of understanding with the American Motorcyclists 
Association and the All-Terrain Vehicle Association that the 
parties agreed to in 2009 and that expires in 2014. The purpose 
of the MOU is to continue to develop and expand cooperation 
between the Forest Service and the recreational groups to find 
mutually beneficial trail programs, projects, and activities at 
the local level.
    Mr. Chairman, I will submit the full MOU for the record.
    But it seems clear to me that such MOUs are an effective 
way to help find areas of agreement between the off-highway 
vehicle industry and the Forest Service. Can you please address 
your opinion on the Wayne Forest MOU and if you are encouraging 
other national forests to consider signing similar MOUs in 
other regions?
    Mr. Tidwell. Yeah, I am not familiar with that MOU, but I 
do believe it is a good approach, and it is a necessary 
approach. For us to be able to determine a sustainable system 
of routes and trails and roads that can be used for motorized 
recreation, we need to bring people together; and I really 
appreciate it when the motorized community steps up to the 
plate, brings their knowledge, the information that they have 
to help us, you know, do that planning to be able to work with 
everyone that is interested in this issue. That is the way that 
we can come to a resolution with a strong agreement so that we 
can maintain a system of routes and trails that not only folks 
can depend on today but for years to come that they know they 
will have a place to ride.
    Mr. Johnson. Well, I appreciate that. I am encouraged then, 
because I want to make sure that the economic impact is 
considered. It is a growing industry in southeastern Ohio. We 
certainly want to maintain the access to those lands for those 
industries.
    With that, I appreciate your comments. Mr. Chairman, I will 
yield back the balance of my time.
    Mr. Bishop. Thank you.
    I get to be the last one on the first round. So, Mr. 
Tidwell, let me concentrate on you. Mr. Abbey, I will get you 
second round if that is OK.
    Let me follow up, Mr. Tidwell, if I could, on a question 
that Mr. DeFazio asked and one that I was interested in as 
well. Under the Integrated Resource Restoration Fund, 
obviously, we didn't like that in the past. Do you actually 
have current subaccounts listed in your proposed budget for all 
those elements that you are wrapping in together?
    Mr. Tidwell. We do show the targets as far as the board-
feet that we expect to produce, the miles of stream improvement 
and the miles of wildlife habitat, et cetera. We do not have 
subaccounts that show how much money will be spent on, say, 
forest products, how much money will be spent on wildlife, how 
much money will be spent on fish. We felt that that was 
contrary to what we are proposing.
    We want to be able to have one fund so that when folks come 
together, we sit down with our communities and our counties and 
our States and determine what work needs to be done on this 
landscape, we can then go about designing a project that will 
accomplish that work and then be able to have one fund that we 
can use that. Right now----
    Mr. Bishop. All right. Thank you. You answered the 
question. Let me move on quickly.
    As I understand, Secure Rural Schools has never been part 
of your budget before as far as discretionary. That would be 
something that would be new and different.
    Mr. Tidwell. Yes.
    Mr. Bishop. I would also like to follow up on some things 
that Mr. Broun started on at the same time. Do you believe that 
property lines are considered artificial boundaries?
    Mr. Tidwell. They are not artificial boundaries.
    Mr. Bishop. All right. Then I need to ask a question about 
your landscape planning concepts, especially in the draft rule, 
which I have to admit is, at best, somewhat vague. So how do 
you envision the Forest Service managing landscape levels, in 
the words of your draft rule, irrespective of ownership or 
other artificial boundaries?
    Mr. Tidwell. The required assessments, we want to consider 
what activities are ongoing on adjacent lands, what activities 
are ongoing with the county so that we factor that into our 
planning. When we talk about boundaries, we want to make sure 
we recognize that things like the bark beetle infestations, the 
noxious weed infestation, they do not stop at any boundary; and 
so we want to make sure that we can coordinate our activities 
with those things that are going on on adjacent land.
    So when we talk about the boundaries, of course we respect 
private land. We respect all boundaries. But, at the same time, 
we need to be able to understand that the issues don't stop at 
those boundaries. So we need to be aware of what is being 
proposed so we can work together to be able to do a better job.
    Mr. Bishop. You are talking about coordination, though, 
with those entities.
    Mr. Tidwell. Yes.
    Mr. Bishop. So how far, just as a standard, do you think 
your agency influence should extend outside of the artificial 
boundaries?
    Mr. Tidwell. It is not our influence that we are extending. 
We want to factor in what is going on outside of the boundaries 
so we can factor that into our planning.
    Mr. Bishop. I appreciate that.
    I assume you are aware of Secretary Salazar's order with 
wild lands. Does, in any way, his wild lands proposal parallel 
your recommended wilderness areas on forest lands that you 
managed under Region 1 when you were back there, or do you have 
plans to manage recommended wilderness area in that same way on 
the national level?
    Mr. Tidwell. The guidance that we used there in Region 1 
was to--during our planning process, we are required to 
identify lands that we recommend to Congress for your 
consideration for wilderness. And when we are going through 
that discussion with the public and with our counties and with 
our States, one of the things that we stress, we wanted to 
understand what were the existing uses. Is there snowmobiling? 
Is there OHV riding? Is there mountain biking? Is there roads 
that are in that area? Is there oil and gas leasing? I felt it 
is important that we factor that in before we make our 
recommendations.
    Mr. Bishop. And then make those recommendations to 
Congress.
    Mr. Tidwell. Make the recommendations to Congress.
    Mr. Bishop. So the process, you would do the inventory, you 
would then come to us before those final decisions would be 
made.
    Mr. Tidwell. Yes.
    Mr. Bishop. OK. Let me ask one last question that goes 
directly to what Mr. Broun said, and I have only got 30 seconds 
to do this. The statement that was made as far as supporting 
private contracts with individuals as property rights, I assume 
you accept that as well. Do you agree with the importance of 
the government to stand behind its contracts with private 
individuals and companies?
    Mr. Tidwell. We recognize private rights.
    Mr. Bishop. OK. I think the question then that was asked of 
Mr. Abbey that should have been directed to you was the 
situation in Wyoming in which the recommendation was indeed 
that those oil and gas leases should be abrogated. So do you 
approve of that decision that was made in Wyoming?
    Mr. Tidwell. The decision that we made in Wyoming is that 
the first decision went forward, and it was appealed. We went 
back and reviewed our decision; and, based on changed 
conditions, we came up with a different decision. Based on 
that, we have asked the BLM to withdraw the leases that were 
issued under the first decision.
    Mr. Bishop. That becomes problematic, but my time is up, 
and I appreciate that.
    We now start the second round, and I will turn to the 
Ranking Member to begin that.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Abbey, a colleague--I think the implication or maybe 
even the statement was that BLM was inventorying public land 
for wilderness and not for oil and gas. The situation to me is 
that the oil and gas industry, it conducts its inventory when 
it comes in through the process for permitting based on what 
they, as an entity, see as a viable source of energy for them, 
oil and gas. And so prior--and so, as you do multi-use 
inventories of BLM, which I assume goes on all the time, the 
wild lands policy to me is reinserting in there what former 
Secretary Norton took out, which was the ability to inventory 
wilderness. So if exploration drives oil and gas inventory, 
what drives the inventory that is necessary around issues like 
wilderness? Who explores for that?
    Mr. Abbey. Well, Congressman Grijalva, it is a recognition 
that conservation is part of our multiple-use mandate and 
wilderness management is part of that conservation initiative.
    I do want to address the issue relative to oil and gas data 
and inventory. My crackerjack budget team reminded me that 
there were studies done between 2005 and 2008 relative to 
inventory and Federal mineral estates to determine where there 
is the highest mineral potential, or moderate to high mineral 
potential. And during those studies during that 3-year period 
the finding is that there were around 280 million acres with 
moderate to high oil and gas potential.
    Mr. Grijalva. Thank you.
    Chief, and this is in my part of the world, a southern 
Arizona question. There appears to be an upswing in the number 
of proposed mining projects on public lands in southern 
Arizona. For example, I understand that the same people 
involved in the Rosemont proposal are proposing a mining 
project near the community of Patagonia. And there are other 
proposals that have come to light over the past few months. 
There are also, as you know, thousands of abandoned mines in 
the area, as well as mines presently active and operating.
    The question is, what process will the Forest Service use 
to assess the cumulative effect of all this mining under the 
resources of the Coronado National Forest? Each one is dealt 
with as you are doing with Rosemont. Should they dump the 
tailings on forest land or not? Question, it is done 
individually. There is a cumulative effect in southern Arizona 
that that question keeps rising. Is there a process by which 
you look at that total effect of mining?
    Mr. Tidwell. We are required to look at the cumulative 
effects of every activity that we do; and that is determined by 
the geology, the geographic area, and then also from the 
public. And so, depending on which project we are looking at, 
you know, we look at the cumulative effects of how that will 
affect the rest of concerns, issues, and the environment and 
then factor into what is the best way to move forward with 
these projects.
    It is not--we are not possible to say look at everything at 
one time. We have to take these proposals as they come forward 
one at a time, but then we are required to do that cumulative 
analysis.
    Mr. Grijalva. I think with the discussion is we need to 
permit this use. We need to have this extraction done. It is 
good for the economy--don't deny that--and energy. It is good 
for independence.
    But as you see in many of these communities, there is also 
a great deal of opposition that occurs as well. And one of the 
questions coming up more and more prevalent in these areas is 
what is the cumulative effect of this extraction in the long 
term. I think that is going to be more and more of a demand on 
the agency as time goes on and as the activity around public 
lands increases.
    Mr. Tidwell. The concerns that we hear the most about are 
concerns about water quality and about air quality. And so, 
when you mention numerous proposals, that is one of the things 
we have to take a look into, is what is going to be the 
cumulative impact on water quality and also the impact on air 
quality.
    Mr. Grijalva. Mr. Abbey, my time is up, but if I don't get 
to it, a litany of questions around wild horses and burros and 
the present management's strategy versus some other 
alternatives.
    OK. Thank you. Yield back, sir.
    Mr. Bishop. And we will definitely have time to talk about 
wild horses later on. Boy, will we have time to talk about wild 
horses.
    I recognize the gentleman from Georgia, Mr. Broun.
    Dr. Broun. Thank you, Mr. Chairman.
    Chief Tidwell, Mr. Bishop just asked you the question that 
I asked previously about government standing behind the 
contracts with private individuals and companies. As the 
Secretary said, that it is private property; and you said that 
you agree with that. And then you just answered Congressman 
Bishop saying that you are withdrawing--recommending 
withdrawing the leases. These are two contradictory statements. 
Sir, both cannot be true. Which is factual? You made two 
statements that are totally contradictory. Which is factual, 
sir?
    Mr. Tidwell. We have the authority to make the decision on 
surface management of these leases, and we then request that 
the BLM follows that. In this case where there were leases 
issued and then that decision was appealed and no one knows if 
they could have gone forward or not, we then did the additional 
analysis and then came up with a decision.
    Dr. Broun. Then you are not going to recognize the private 
property rights of those lessors.
    Mr. Tidwell. We will work within their property rights.
    Dr. Broun. The answer is, no, you don't agree with that.
    Sir, among the three accounts you have proposed $230 
million for land acquisition. Do you have a prioritization of 
the list of properties you are targeting to purchase, and are 
these acquisitions critical to the extent that cuts to other 
areas such as roads are justified? And have you calculated the 
funds that would be taken out of the local tax bases if you do, 
indeed, purchase these properties?
    Mr. Tidwell. Mr. Congressman, we always submit a list of 
properties to Congress for your consideration. You decide which 
properties we move forward with. And so, for 2012, we have 
submitted a preliminary list of properties that we would 
acquire under the fee acquisition and then also a list of 
properties where we have landowners that want to work with us 
to acquire a conservation easement under a forest legacy 
program.
    So we submit both of those. They are relatively small 
parcels. These are things that the public feel strongly about, 
wanting to help be able to maintain, provide public access that 
we continue to lose throughout the country with development. 
And then forest legacy programs, it helps people to stay on 
their land. It helps to keep these areas open. Open space 
provide wildlife habitat, be able to keep working ranches 
working, be able to keep this private forest forested. That is 
the purpose of these programs, and there is strong public 
support, and that is the reason, even in these tough budget 
times, where we felt that we should request full funding of 
LWCF.
    Dr. Broun. Sir, most of the American public think that we 
need to cut spending of the Federal Government. It is 
outrageous, and we cannot continue down this road. The Federal 
Government has a lot of assets--unused buildings, property, 
trees, other things--and, frankly, I believe that we need to 
start selling trees. We need to start selling properties and 
not acquiring more. When people are going bankrupt, as the 
Federal Government is doing, it is absolutely critical that you 
take an inventory of assets and start selling those assets and 
not continue to purchase more.
    I think your proposal of buying more property is totally 
irresponsible, and I am totally against that. The American 
public in general would be totally against that.
    You may have some groups that want to buy property. 
Certainly there are a lot of groups that would like to see the 
whole of that country, as indicated in this chart, all be under 
blue. But we cannot continue going down this road that we are 
going.
    Sir, what Forest Service regulations exist that the Sixth 
U.S. Circuit Court of Appeals referred to in their recent 
ruling that requires the Service to consider banning gun 
hunting within the Huron and the Manistee National Forest, and 
what is your plan regarding this issue, and why do you pursue 
that plan?
    Mr. Tidwell. I am not sure if I--I am not familiar with 
that situation, but we----
    Dr. Broun. Well, if you will get back to me.
    Mr. Tidwell. We do not ban hunting on national forest land.
    Dr. Broun. No, sir. This is--the Sixth Circuit said you 
must consider banning gun hunting.
    I have very limited time. What is the authority for the 
Federal Government to designate lands as wild lands, and is 
this an effort by this Administration to circumvent Congress' 
sole authority to designate lands as wilderness? And I ask you 
both that. You have about 10 seconds each to answer.
    Mr. Abbey. Let me take the first shot, Tom.
    Sections 201, 202, 102, 103, and 302 of the Federal Land 
Policy and Management Act provides the statutory authority for 
us to conduct inventories and to use our land use planning 
process to designate certain lands as wild lands. It also 
allows us to apply management prescriptions on all public 
lands.
    Dr. Broun. Sir, my time has run out, but you do not have 
the authority to create a new land category, and you are trying 
to circumvent what this Congress and only Congress has the 
authority to do. You need to stop it, sir.
    Mr. Bishop. I am going to have to cut this off. I apologize 
for that; and we will be coming back on wild lands again, too.
    Mr. Abbey. I would welcome the opportunity to address it.
    Mr. Bishop. Probably not. But you will still have the 
opportunity.
    Let me refer to the gentleman from Oregon for a second 
round. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    This would be to both, because I understand both of your 
agencies submitted memos on December 15 to the United States 
Fish and Wildlife Service regarding the draft spotted owl 
recovery plan. I further understand that the memos outlined 
possible reductions in Northwest forest land harvest levels 
that would significantly impact rural communities' timber 
structure, Southwest Oregon. I guess--I have been told that I 
am misreading this or misunderstanding the discussion. I don't 
know. But, one, I have seen the memos, but I understand there 
is additional information that has been provided, and I believe 
we need to have a more open and public discussion of what are 
the implications here, and my constituents are very confused. 
Can either of you help me with this a little bit?
    Mr. Tidwell. Well, we are working closely with Fish and 
Wildlife Service on the spotted owl recovery plan and to make 
sure that things that are being considered that there is full 
consideration for the impacts on our need to do the restoration 
work, the impacts on the timber harvest industry. We need to 
factor all of that in to our efforts to be able to recover 
spotted owls. And so at this time I feel we are working very 
closely together and being able to share the information so 
there is full consideration of the consequences of some things 
that are being considered.
    Mr. DeFazio. How about a public meeting where the three 
agencies could discuss where they believe this is going? Again, 
I am having tremendous confusion on both sides of this debate, 
and this is a very polarizing issue.
    And then, further, I would reflect we have had--and the BLM 
in particular is working with two of the four of the gang of 
four scientists who created the Northwest forest plan, and they 
say that all of this extraordinary area that is off limits 
because of virtual owl circles is nothing they ever 
anticipated, nor is it necessary. And are we going to take care 
of all this, like, weird stuff like virtual owl circles in this 
recovery plan?
    Because they say the management of the forest is what is 
key. And if you are managing the forest properly and you are 
not going into the active owl areas--but having these virtual 
circles, which basically leave you like one tree that you can 
harvest over a very large area, is creating an impossible 
situation. Is that going to be dealt with?
    Mr. Abbey. Well, Congressman DeFazio, let me address your 
earlier question.
    The Bureau of Land Management, as well as the U.S. Forest 
Service, did provide comments on a draft recovery plan that was 
completed by the U.S. Fish and Wildlife Service. As Chief 
Tidwell mentioned, we have been working very closely after 
reviewing that draft to try to address some of the concerns 
that I think both bureaus had raised. We had an excellent 
meeting with the U.S. Fish and Wildlife Service just last week 
where we had the U.S. Forest Service as well as the Bureau of 
Land Management sitting down with the Fish and Wildlife 
Service, who has the ultimate authority for issuing a recovery 
plan.
    Mr. DeFazio. Just keep your thought.
    But, I mean, wouldn't it be possible to actually have that 
discussion in a public forum--you don't necessarily have to 
have people interrupting--or at least teleconference it or 
something so people could hear the discussion that is going on 
that is so critical?
    Mr. Abbey. I would defer to the U.S. Fish and Wildlife 
Service as to how they would like to handle their recovery plan 
process. But I do know that they have provided us a great deal 
of opportunities to provide input on their recovery plan. We 
appreciate that opportunity. We believe that the recovery plan 
that will likely be completed and finalized will reflect our 
input.
    Mr. DeFazio. OK. But I guess we are kind of concerned about 
what that input is, other than the December 15 memo, but I 
don't think we are going to get there. But I guess then I will 
address my concerns more directly to Fish and Wildlife about 
conducting a more transparent process on something that is so 
critical.
    You know, the Northwest forest plan was developed in 
secret. Didn't work out so well. I opposed it at the time. I 
was right. I said, it is not going to resolve the issues. It is 
going to lead to gridlock. It did.
    So I am concerned that, as we move forward in this critical 
reiteration of this, that it be done in a way that is better 
understood and hopefully will work.
    So, anyway, thank you. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Bishop. The gentleman Colorado, Mr. Coffman.
    Mr. Coffman. Thank you Mr. Chairman.
    Chief Tidwell, your testimony before the committee today, 
as well as your written statement, do not contain any 
information regarding policies, procedures, and funding for the 
development and permitting of oil, gas, and mining activities 
on forest land. Based on this submission, I have several 
questions for you. Is the Forest Service sufficiently staffed 
to issue new or additional permits for oil, gas, or mining 
activities on forest Federal lands--I am sorry--Forest Service 
lands.
    Mr. Tidwell. We are staffed adequately. But there is a 
backlog, and we are working very closely with the BLM to find 
ways so that we can improve the deficiency of the permitting 
process so that we can address the backlog. But at this time 
there is a backlog.
    Mr. Coffman. OK. If one of your employees stated that the 
Forest Service did not have enough money or staff to issue oil, 
gas, or mining permits, would you consider this to be an 
accurate statement?
    Mr. Tidwell. It would be accurate if they said that we are 
not able to do it at this time. Because we are not able to 
actually process every permit the day that we receive it, start 
working on it. So we have to take those in as they come, and we 
are continuing to work on our backlog and find ways to be more 
efficient. But we don't have the staffing to be able to deal 
with everyone the first day that they come in.
    Mr. Coffman. Based on time, I am going to ask you to 
provide my office with written--and to the committee--with 
written answers to the following questions: How many oil, gas, 
or mining permits has the Forest Service issued over the last 2 
years in Colorado and Wyoming? How many permits are pending? 
And I would like details regarding how long these permits have 
been, quote, unquote, on hold, along with an explanation 
regarding any delays and a projected time line for the permits 
to be issued.
    Mr. Coffman. Then, Mr. Abbey, I have a question now. Just a 
point of clarification. You are saying that the wild lands 
policy does not impact existing leases? I just want to get you 
on the record on that one.
    Mr. Abbey. It does not.
    Mr. Coffman. OK. And so it obviously does impact future 
leases, does it not?
    Mr. Abbey. Potentially.
    Mr. Coffman. I just want to say, it seems to me that there 
is some collusion, whether it is informal or it is formal, 
between BLM and some of these organizations that don't want oil 
and gas development like on places like the Roan Plateau in the 
State of Colorado, where you utilize your discretion to say oh, 
any litigation and I am simply going to block it from going 
forward, any development from going forward. And they know that 
if they put up any litigation, even though you have the 
discretion to allow it to go forward, that you are going to, 
you know, do that.
    It seems to me what you are doing is you are just 
encouraging litigation from those people that want to block oil 
and gas development. It would seem to me that the operator or 
the one doing the oil and gas development, they can assess the 
legitimacy of those claims by the plaintiffs as to whether or 
not it is feasible to go forward. But it seems to me that you 
are working in concert with them so that Americans cannot 
develop American energy.
    Mr. Abbey. Well, I would take exception to that assumption, 
sir. Because we do, you know, go back and assess the litigation 
risk by reviewing the previous analysis that was done under the 
NEPA to determine whether or not it would withstand such a 
legal review, and we make a decision relative to whether or not 
we are willing to go forward with such risk. And, by that, if 
we believe firmly that the NEPA that had been completed covered 
all the bases and that we had a good chance of winning that 
litigation, we might make a decision to go forward and lease 
that area.
    Mr. Coffman. Don't you think that the operator can make 
that assessment? In other words, if you say, you know, go 
forward, and the operator sees that there is a litigation risk 
out there, then the operator is going to make an assessment as 
to whether or not--what is the risk in terms of their 
investment relative to the risk.
    Mr. Abbey. We are the ones defending it in court. We are 
the ones that have to assess that risk.
    Mr. Coffman. Well, let me just say something to both of 
you. I think that there is a lack of understanding here in 
Washington, D.C., as to the extent that we have a fragile 
economic recovery right now and that American families are 
suffering right now and a prolonged spike in energy costs will 
put this country into a second dip recession. And in the 
fragile recovery that we have right now--and a lot of this is 
in your hands, that you control the keys to whether or not 
Americans are allowed to produce American energy.
    And with that, Mr. Chairman, I yield back and would like 
the answers back from the Director of the Forest Service when 
he can get to them.
    Mr. Bishop. Thank you.
    Mr. McClintock.
    Mr. McClintock. Thank you Mr. Chairman.
    Director Abbey, my ears perked up when you mentioned--and I 
want to be sure I understood this correctly--that you believe 
there are 280 million acres of BLM land that have moderate to 
high potential for oil and gas development.
    Mr. Abbey. Two hundred and eighty million acres of Federal 
mineral estate, not necessarily Bureau of Land Management land.
    Mr. McClintock. OK, 280 million acres owned by the Federal 
Government with mineral or oil or gas potential designated as 
moderate to high.
    Mr. Abbey. That is my understanding.
    Mr. McClintock. How many of those acres are actually being 
used for that purpose?
    Mr. Abbey. Well, I will say this, that the Bureau of Land 
Management has leased 41.2 million acres for oil and gas, and 
12.2 million acres are under production.
    Mr. McClintock. Well, how much of the unutilized properties 
is because of permitting delays or litigation?
    Mr. Abbey. Very little.
    Now there is some backlog in some of our resource area 
offices, as I mentioned earlier to a similar question that you 
asked. But, in many cases, there is no backlog. It is just that 
we are not getting the applications----
    Mr. McClintock. According to the McKenzie report, 2 billion 
barrels of oil is off limits to exploration and production in 
the Rocky Mountain region alone. Do you have an explanation for 
that?
    Mr. Abbey. I will say this, that production on public 
lands, onshore public lands has increased in 2010 from what had 
been previously produced on public lands in 2009 and earlier.
    Mr. McClintock. Let me go to Chief Tidwell for a moment. 
The travel management rule was not a congressional mandate, so 
a lot of folks in my area are wondering why you are continuing 
to spend precious resources in implementing travel management 
plans that clearly exclude access to large numbers of people 
from our national forests. Several of the national forests in 
my district, for example, are shutting off the majority of HOV 
access under the travel management rule. Why haven't you issued 
guidelines to ensure that travel management plans are more 
balanced?
    Mr. Tidwell. We have issued those guidelines. The purpose 
of the travel management plans is to be able to sustain 
motorized recreation. That was the intent of the rule. We 
wanted to have a consistent approach that we would follow 
across the country to be able to also then have consistent 
mapping so that folks know where they can ride. They can stay 
on the designated trails and hopefully reduce the concern from 
cross country travel and some of the environmental effects. So 
the purpose is to sustain motorized recreation.
    Mr. McClintock. So the dramatic reduction in the public's 
access to the public's land is actually to help them have 
better access to the land. Is that the logic you are offering 
us?
    Mr. Tidwell. To restrict cross country travel that was 
resulting in significant environmental effects and strong, 
strong opposition that we refine our--spend a lot of time in 
court, yes, that was one of the key benefits of this approach.
    Mr. McClintock. That is an extraordinarily circular form of 
logic, Chief Tidwell. You are closing off vast amounts of our 
forests, our public lands to public access. I am being flooded 
by complaints of constituents in communities, and the answer 
you have given is just incredible to me.
    But let me go on and just ask you about the Great Outdoors 
Initiative the President has been promoting that you mentioned 
to provide more access to the public lands. I would like to 
know how the Administration's budget proposal for $3.2 million 
reduction in the trails budget and $79 million reduction in the 
roads budget is targeted to decommission an additional 4,370 
miles of roads is consistent with the Great Outdoors 
Initiative.
    Mr. Tidwell. The focus on the decommissioning is to address 
the environmental issues that are occurring from roads that are 
no longer needed beyond our system. And so by dealing with 
those environmental issues it allows us then to be able to 
focus our maintenance funding on maintaining the road system, 
the trail system that is needed. By doing this, we reduce our 
deferred maintenance; and we are able to then focus our limited 
roads budget on maintaining that system of roads that we need 
to keep in place.
    Mr. McClintock. Well, the clear pattern is one of closing 
off our national forests to the public.
    And I would just conclude with, agreeing with Congressman 
Coffman. The two of you are entrusted with management of our 
Nation's most valuable resources, untold billions if not 
trillions of dollars worth of renewable timber, water, 
hydroelectricity resources, grazing lands, recreational 
resources, vast oil and gas reserves, mineral resources. Not 
only do you appear to be failing to manage these resources, you 
appear to have become an active obstacle to developing them to 
the sustainable prosperity of our Nation. And I would just warn 
you, particularly with oil and gas prices today, a day of 
reckoning is fast approaching when people are going to want 
heads to roll; and I think you are going to need to come up 
with some better answers than you have.
    Mr. Tidwell. I am sorry you feel that way. I think our 
record, if you look at the multiple use activities that occur 
across the national forest and grasslands, that you will see 
that there is very good balance of our focus on energy 
production, our focus on recreation, and our focus on restoring 
the national forests and dealing with fuels.
    Mr. McClintock. That is not what your customers are telling 
me.
    Mr. Bishop. I am going to have to interrupt both of you 
here on this. Time has expired. We can come back with another 
round or, actually, you could ask for a written response as 
well.
    Representative Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    Chief Tidwell, when I read through your written report, I 
wasn't quite able to pick up, what is the wild fire management 
budget? Is it up, down, about the same?
    Mr. Tidwell. We are requesting a reduction in suppression 
funding. We will maintain our preparedness funding at the same 
level. We are also requesting a realignment between moving some 
of the suppression costs into preparedness where they 
rightfully belong. That is for our aviation contracts. But our 
overall preparedness budget stays the same, so we will have the 
same level of resources we have had in the past. But we are 
reducing our request in the flame fund and also for 
suppression, and that is based on the balances that we had when 
we started putting together our budget for 2012, that we felt 
that we had some sufficient balances there that we could 
request less funding and still be OK to cover the cost of even 
a moderate to high fire season.
    Mr. Tipton. OK. That is something you might want to keep a 
real eye on, and I know I don't have to tell you.
    You know, in the third CD of Colorado we are one lightning 
strike, one dropped match from a huge wildfire. We have a lot 
of dead and fallen timber that is sitting there.
    I want to follow up just a little bit on Congressman 
McClintock's--because I have had some of the same comments 
coming in as well in regards to the closing of access into our 
national forests. Were any public hearings held on that?
    Mr. Tidwell. Every forest and grassland that goes through 
their travel planning, they conduct numerous public meetings, 
have open houses to be able to get the information and be able 
to have the public be engaged in that process. There are often 
groups that spend many, many hours trying to reach agreement on 
the system of routes and trails that we can sustain over time 
so that folks know what they will be able--where they can go 
today and where they will be able to go tomorrow. And so that 
is the process.
    It is probably--of everything that we do it probably has 
more public involvement because of the level of interest. And 
it is also--it is one of the things that folks work very hard 
to be able to find areas of agreement on what system of routes 
and trails we need to maintain.
    Mr. Tipton. Great. You know, I would like to learn a little 
more from you. I have had comment coming back from my 
constituents that they were not made aware of meetings, and we 
have some handicap access issues, being able to get back to 
streams and whatnot with road closures that are impacting a lot 
of folks in the third CD of Colorado. Thank you.
    Director Abbey--this is probably for both of you. How many 
permits do you have backed up? Do you have a number?
    Mr. Abbey. I don't have a number. I do know that we issued 
close to 5,000 permits to drill in 2010. We anticipate issuing 
similar numbers in 2011. We anticipate, given the market, that 
the numbers of applications for permits to drill would increase 
in 2012.
    Mr. Tipton. So you had mentioned earlier in the first round 
there that you did have a backlog. You don't know what that 
number is?
    Mr. Abbey. I don't, but I could provide that to you.
    Mr. Tipton. OK. Chief?
    Mr. Tidwell. I don't have that number with me today, but I 
will provide that to you.
    Mr. Tipton. You know, if we could get that, and I would 
also like to know what the backlog time is associated with that 
in terms of being able to get out those permits as well.
    Mr. Tidwell. OK.
    Mr. Tipton. And, Director Abbey, this is for you, and it 
goes back to the wildlands issue. Ranchers, the oil and gas 
industry, local governments, and the mineral industry, 
motorized recreational users in our district have voiced strong 
opposition to the wildlands policy. I would like to know what 
efforts you made in terms of reaching out before it was 
announced----
    Mr. Abbey. We didn't have any formal outreach program 
designed to solicit input from any interest prior to issuing 
the secretarial order.
    Mr. Tipton. Do you think that was wise given these are the 
public's lands?
    Mr. Abbey. What we were trying to do is resurrect the 
policies that were in place prior to Secretary Norton entered 
into that Sullivan agreement in 2003. Pretty much what we have 
done is resurrected a policy and actions that were taking place 
under President Reagan, President Bush, and President Clinton 
on how we conduct inventories of public lands and how we 
evaluate those inventories to determine whether or not areas 
with wilderness characteristics should be protected.
    Mr. Tipton. Just to clarify again, there were no public 
hearings?
    Mr. Abbey. There was not.
    Mr. Tipton. There were none.
    Why weren't local officials at least announced 2 days prior 
to the announcement of this proposal? There was no announcement 
even to public officials.
    Mr. Abbey. This was an administrative process. We moved 
forward with what we believe we had the authority to implement 
and that was long overdue.
    Mr. Bishop. Time is up here again. And once again, we will 
have you back for a wildlands hearing one more time as well.
    Representative Gosar.
    Dr. Gosar. Chief Tidwell, I believe it is critical that the 
relevant government agencies work with local communities to 
expedite flood protection measures and to address the immediate 
threat posed by the postfire and floodland conditions, as I 
highlighted with Director Abbey in the Waterfall fire.
    Currently not enough is being done. Coconino County has 
done all they can within the resources that they have 
available. Over $10 million has been allocated by public 
agencies to address the emergency, including over $3.5 million 
from the county. While some of these funds will be reimbursed 
due to the Federal disaster release designation, it is 
estimated another 15 million is going to be needed to 
adequately address the issue. Local entities simply don't have 
the resources to take the necessary measures within the next 
few months. If nothing is done prior to the monsoon season, up 
to 1,200 more homes will be at risk for floods, millions more 
in damages to infrastructure could occur, and more lives will 
be put in danger.
    Earlier this week Senators McCain, Kyl and I sent you a 
letter requesting that during your visit to Arizona, you meet 
with Coconino County officials and homeowners in the community 
to discuss the Schultz fire remediation and flood mitigation 
efforts, which I will submit for the record if the Chair has 
the permission.
    Ultimately, no substantive action can be done on the effect 
of Federal lands without the cooperation and commitment from 
the United States Forest Service. This disaster occurred in 
Coconino National Forest, and it is the Federal Government that 
bears the responsibility, if not a moral obligation, to assist 
my community with flood mitigation and recovery.
    We were all taught as children that when you make a mess, 
you clean it up. Well, this mess was made by the Federal 
Government. It is time to clean it up. Critical work has to be 
done beyond laying straw and replanting shrubs. Mitigation 
projects on the National Forest, such as diversion channels, 
retention basins and even water barriers constructed by the 
remains of cut burned trees locked behind existing stumps are 
going to be necessary.
    Will you come to northwest Arizona and see firsthand the 
time-sensitive work that must be done prior to the summer 
monsoon season? Will the Forest Service commit to helping the 
county and the residents put measures in place in time for the 
monsoon season to protect health and safety? And finally, 
considering the affected land is in the Coconino National 
Forest, will the Forest Service take the lead in the 
multiagency effort?
    Mr. Tidwell. I appreciate your invitation to come out 
there, and I will do everything I can to be able to get out 
there as soon as I can. You have my commitment that our folks 
will continue to work with the county and also with all of the 
other Federal agencies. There has been, I believe, a tremendous 
response, but at the same time, as you mentioned, with the 
rains that we received following the fire, we still had tragic 
situations, a tragic event, and we had a lot of flooding and 
damage.
    I do understand there are some opportunities that we are 
pursuing right now to be able to look at some other structures 
that can be put into place to be able to deflect some of the 
potential flooding that is going to come, whether it is this 
year or the next year, And that is the thing that we need to 
continue to work on. And you have my commitment with all the 
resources we can bring to bear and everything that we can do to 
continue to work with the other Federal agencies and with the 
county. I believe there has been a strong collaborative effort, 
and folks have been doing a lot of good work. We just need to 
continue and be able to do what we can before the next monsoons 
come.
    Dr. Gosar. Well, I would like to ask you about the thinning 
of the forestland, because the Schultz Pass fire could have 
been avoided had we had proper thinning a few years ago. In 
your opinion, what prohibited this necessary forest management? 
Was it the lawsuit brought up by the environmental group funded 
by the taxpayer dollars under the Equal Access to Justice Act? 
Did the Forest Service not have the adequate funds allocated 
within its budget to finance the efforts on its own? Was it due 
to the low timber demand leading to below-average prices? I 
would appreciate the Forest Service's insight.
    Mr. Tidwell. I am not familiar with the history of what was 
proposed there prior to the fire. The three things that you 
have mentioned are often things that delay action. We continue 
to focus our thinning work, our hazardous fuel work in the 
wildland-urban interface so that we have a greater chance to be 
successful when a fire starts, successful to be able to 
suppress that.
    I will be glad to get back to you as to what was the 
history with this area and what projects were proposed prior to 
this fire.
    Dr. Gosar. And for both of you, for the last remaining 
seconds--and you can respond later--do you have an idea in 
which we can satisfy the law's requirement, yet minimize the 
futuristic application of erroneous lawsuits? Because we seem 
to have this problem over and over and over that a postage 
stamp at the last minute allows a delay in procurement of 
forest thinnings, Snowbowl, a lot of different opportunities in 
Arizona. So I would like your comments in regards to how we 
could approach these egregious lawsuits. Thank you.
    Mr. Bishop. Thank you.
    Let me try to hit both of you with some quick questions 
here. And since once again we are dealing with wildlands later 
on, I will try to eliminate that one for you. You can rest 
assured for a moment.
    Mr. Abbey, are you currently in any stage--including 
brainstorming--in any stage of planning for any new or expanded 
national monuments with or without the Antiquities Act?
    Mr. Abbey. No.
    Mr. Bishop. Oh, great. That is the best answer I have heard 
today.
    Mr. Tidwell, let me hit you up with a follow-up on what was 
just asked you. How much is budgeted for plaintiffs' fees under 
the Equal Access to Justice claims in your Department?
    Mr. Tidwell. Mr. Chairman, I don't have that number today, 
but I will get that to you.
    Mr. Bishop. Do you know how much you spent last year in 
that same arena?
    Mr. Tidwell. We will be able to give you an estimate of 
that.
    Mr. Bishop. You will?
    Mr. Tidwell. I will, yes.
    Mr. Bishop. Thank you.
    Mr. Bishop. Mr. Abbey, let me come back to you on the 
budget. For NLCS, which I still liked better when it was the 
National League Championship Series, what is the budget for the 
NLCS office itself in Washington?
    Mr. Abbey. I would have to provide that information to you 
later. I don't have that readily handy.
    Mr. Bishop. You are asking for an additional 15 million for 
NLCS. Is that directed at the office administration in 
Washington?
    Mr. Abbey. No way. No. We have over 80 percent of our plans 
that have been completed for the National Landscape 
Conservation Units. Those plans have called for specific 
actions that need to be implemented on the ground, including 
enhanced visitor services. The monies that we are requesting 
would go directly to on-the-ground activities.
    Mr. Bishop. What is the total budget for NLCS?
    Mr. Abbey. I could pull that up.
    Mr. Bishop. I am sorry for asking budget questions at a 
budget hearing. You haven't had a whole lot of those, I 
realize, today.
    Mr. Abbey. It is 78 million.
    Mr. Bishop. And you don't happen to have what the office 
expenses will be from that group?
    Mr. Abbey. For the Washington office? No, I do not.
    Mr. Bishop. You will have to do that later. I would 
appreciate getting that.
    Mr. Bishop. Mr. Tidwell, when you are doing your 
inventories, especially with your accounts for land 
acquisition, have you calculated the funds that would be taken 
out of the local tax base with any new land acquisition?
    Mr. Tidwell. It is not one of the things that we factor in. 
We look at the benefits of the proposal, and it is private 
property, that when a private property owner wants to sell 
their land to us, we work with those folks. And if their 
properties rate out high enough in our priority list, we send 
that list to Congress, and then Congress decides on which 
properties to go forward with.
    Mr. Bishop. It would be possible in the future as you make 
those proposals to come to Congress; you could do that kind of 
analysis, right?
    Mr. Tidwell. Yes. We could ask the property owners for how 
much tax they have been paying, yes.
    Mr. Bishop. Let me stop right now. Let us do another round, 
but I will go to Representative Grijalva first.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Abbey, why are you not brainstorming some national 
monuments for the future?
    Mr. Abbey. The commitment we have, Congressman Grijalva, is 
to work directly with the local public to determine where those 
opportunities may exist. That is a commitment that Secretary 
Salazar has made. It is a commitment that I have made to the 
members of the public that I appear before and to Members of 
Congress. That is not to say that sometime in the future, with 
full public support, or at least with public support, that we 
may not recommend to the White House the use of the Antiquities 
Act to designate national monuments. At this point in time, I 
have not recommended, nor has Secretary Salazar recommended, 
any national monuments.
    Mr. Grijalva. Thank you.
    For both of the gentlemen, it has been stated here that oil 
and gas leases provide the holders with certain rights, and I 
think that question was posed to you two or three different 
times. However, these rights are not absolute, nor are they in 
perpetuity. I mean, they are subject to judicial review. They 
are subject to litigation. And am I correct in that second 
part, which wasn't stressed enough when the question was asked?
    Mr. Abbey. That is true.
    Mr. Grijalva. Let us talk a little bit about ``oil above 
all'' policy in terms of extraction, not just all of the above. 
It seems to me that is where the concentration of discussion is 
today. With the understanding that two-thirds of the public 
land already under lease is not in production for whatever 
reason, maybe waiting until we do get to $5 a gallon in order 
to maximize production and profit, what guarantees, if any, 
that if we were to open up 280 million acres with a blanket 
lease, go in there, do what you want, forget natural resource 
protection, forget any other consideration, but let us just go 
after this, what guarantee do we have if two-thirds are not 
being used now that this is just--it is a movement of paper and 
possibly just speculation on the part of some companies?
    I asked the question because I still believe that if we are 
really serious about it, then we have to hold these companies--
and I am sure some of the leaseholders that have that public 
land or some of the big oil companies in this country--hold 
them accountable for production standards, not just issuing and 
issuing and issuing more permits. That process is relatively 
easy. If we are talking about independence, these companies 
should be held accountable. And even the $4 an acre would at 
least bring some, some incentive for the companies to create 
production. I think there has to be an accountability issue to 
these leaseholders, and I don't see it. I don't know if you see 
any other mechanism other than the $4.
    Mr. Abbey. Well, Congressman, I would hope that members of 
this Committee understand that it is not the public-land 
policies that have driven up the price of oil.
    Mr. Grijalva. I yield back.
    Mr. Chairman, with all due respect, I have to leave for 
another meeting, and it has been fascinating. Thank you.
    Mr. Bishop. Are you sure you are done?
    Mr. Grijalva. Yeah, I am done. I am just going to leave 
you.
    Mr. Bishop. Nothing personal, I hope.
    Mr. Grijalva. No. It is the parliamentarian with the people 
of Wisconsin.
    Mr. Bishop. I just have three last questions very quickly 
for Mr. Abbey, and then we will be in conclusion here anyway.
    Mr. Abbey, first of all, going back to NLCS, last fall the 
Secretary raised the level to a directorate. How does this 
enhance the management of NLCS units?
    Mr. Abbey. It just puts that position that was formally the 
Director of the National Landscape and Conservation System on 
equal footing as our other Assistant Directors in Washington, 
D.C. We have six, I believe, Assistant Directors.
    Mr. Bishop. So it is an internal thing? It really doesn't 
have that impact on----
    Mr. Abbey. Exactly.
    Mr. Bishop. Will wildlands be considered part of NLCS?
    Mr. Abbey. Wildlands per se is not part----
    Mr. Bishop. If indeed there were wildlands.
    Mr. Abbey. It would not be part of the National Landscape 
Conservation System.
    Mr. Bishop. Thank you.
    Director Abbey, I assume you are aware of the emergency 
closure of the Clear Creek Management Area in southern San 
Benito and Fresno Counties?
    Mr. Abbey. Somewhat.
    Mr. Bishop. This 31,000-acre emergency closure effectively 
closed the entire 70,000-acre area and has been viewed by some 
as the final move to close the entire area to OHV recreation. 
There have been reports--and I am thinking they are somewhat 
reliable--that BLM openly discussed with EPA how to change or 
manipulate or write a report to support closing this unit even 
though there were apparently no health risks. What has your 
office done to investigate this type of rumor, or will you 
investigate this type of rumor?
    Mr. Abbey. We have worked very closely with the EPA to 
determine what risks are associated with the--I forgot exactly 
what materials were out there--but necessarily what best--
asbestos, exactly. Thank you, Mr. Chairman. EPA provided us a 
risk assessment, which we did use in order to reach our 
decision.
    Mr. Bishop. Would you provide a copy of the communications 
between DOI and EPA on this issue?
    Mr. Abbey. We would be happy to.
    Mr. Bishop. Thank you.
    Mr. Bishop. With that, even though there are other 
questions--oh, I am sorry. I lied. Representative Labrador, do 
you have one final round of questions? I apologize.
    Mr. Labrador. That is OK, Mr. Chairman. Thank you.
    I just want to follow up on some of the questions that I 
asked. Mr. Abbey, I am still a little bit confused, and I am 
just going to use an example. You said that you were going to 
look at some designations 20 years later and decide whether 
that was now wildlands even though we had had congressional 
intent.
    So, as you know, my colleague from Idaho has been working 
for 10 years on designating some wilderness areas in Idaho, and 
he has been working very hard on that, and he has tried to get 
a bunch of different groups working together. What I am worried 
about is that it sounds like if he is successful--which so far 
he has not been successful--if he is successful in passing 
CIEDRA, 20--and as you know, under CIEDRA there is going to be 
332 acres designated as wilderness, but there is going to be a 
release of 130,000 acres. So that 130,000 acres that are 
released, under your policy, 10 or 20 years from now could be 
designated as wildlands. Is that correct?
    Mr. Abbey. It could be.
    Mr. Labrador. So all that work that he has been putting in 
the last 10 years into getting groups with divergent views to 
agree, it is going to be for naught at this point?
    Mr. Abbey. Congressman Labrador, I would say it would not 
be. And the reason why I say that, first we compliment your 
colleague for using a collaborative process of bringing in the 
various stakeholders together to try to reach a consensus on 
which areas should be designated as wilderness and which ones 
should not. Again, we honor that process. But over time, 
circumstances change. Twenty years down the line, you may have 
public support for some additional wilderness within the areas 
that had been released under this legislation if it should be 
passed.
    Mr. Labrador. Let us assume there is public support. 
Shouldn't that go through a public process and then through a 
congressional hearing?
    Mr. Abbey. It would go through a planning process first and 
foremost to designate areas as wildlands. And ultimately it 
would be the U.S. Congress who would have to decide whether or 
not to designate those areas as wilderness.
    Mr. Labrador. I am a little bit surprised--if I remember 
correctly, in our last hearing you stated that there was no 
statutory authority. Today you tried to walk that back. But if 
we look at FLPMA, and you look at the declaration of policy, 
which is section 102, it says that the Congress shall exercise 
its constitutional authority to withdraw or otherwise designate 
or dedicate Federal lands for specified purposes, and that 
Congress must delineate the extent to which the executive may 
withdraw lands without legislative action.
    Do you still agree with that policy?
    Mr. Abbey. I do.
    Mr. Labrador. We have not delineated that any such 
designation as wildlands can be found, yet you are doing that 
without congressional approval.
    Mr. Abbey. Wildlands would be designated through our land-
use planning process, which would take place under section 202 
of the Federal Land Policy and Management Act. Congress doesn't 
designate transmission corridors. They don't designate crucial 
or critical wildlife habitat. In our case they would not 
necessarily engage in the discussion whether or not public 
lands had wilderness characteristics and then how best to 
manage those lands with wilderness characteristics. Ultimately 
it would come before Congress on whether or not you deem those 
areas worthy of wilderness designation. That is a congressional 
action.
    Mr. Labrador. But you created a whole new designation 
without coming to the Congress to ask for any input or whether 
it was the advisable thing to do.
    Can you give us a list of energy projects that have been 
delayed due to the wildlands proposal?
    Mr. Abbey. I would be happy to solicit affirmation from our 
field offices. I am not aware of any that had significant 
delays. Last time I testified on this issue, we identified a 
proposed potash lease in Utah where it took us a couple of 
weeks to go forward, inventory public lands to make a 
determination that those lands did not possess wilderness 
characteristics.
    Mr. Labrador. Thank you. I yield back.
    Mr. Bishop. Thank you very much.
    I will suppress any desire I have to say anything else at 
this stage of the game here. If there are no additional 
questions--I won't do it. I won't do it to you yet. If not, I 
want to thank our witnesses, the Chief and the Director, for 
coming here and giving your testimony in this budget oversight.
    Members of the Subcommittee who have additional questions 
for the witnesses may propose those in writing, and the hearing 
record will be open for 10 days to receive those questions as 
well as responses. That is standard procedure.
    Mr. Bishop. With that, if there is no further business, 
once again our thanks for you spending your time with us here 
this morning. And without objection, the Subcommittee stands 
adjourned as if you have just heard the gavel being banged.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Mr. Gosar 
follows:]

      Statement of The Honorable Paul A. Gosar, a Representative 
                 in Congress from the State of Arizona

    Good morning, first I would like to take this opportunity to thank 
Chairman Rob Bishop and Ranking Member Raul Grijalva for allowing me to 
take part in today's hearing. My district, Arizona's First 
Congressional District, is almost seventy percent public land; that 
includes around 2.6 million acres of BLM land and 9.2 million acres of 
Forest Service land. The Bureau of Land Management and the U.S. Forest 
Service's budgets are essential to land management in my communities so 
I appreciate the Chairman's willingness to allow me to participate in 
this important discussion.
    Secondly, I'd like to thank Director Abbey and Chief Tidwell for 
being here to discuss the President's budget priorities for their 
respective agencies. In your written testimonies, both of you assert 
the administration's acknowledgement that the government needs to 
reduce the deficit and reform government so it is learner and more 
effective. In light of this affirmation, I have concerns that millions 
of dollars have been proposed in each of your respective agencies' 
budgets for the purpose of purchasing additional federal lands. This is 
particularly troubling because it appears this allocation was done at 
the expense of the management of existing federal lands.
    In the Forest Service's FY2012 budget, over $230 million is 
allocated for land acquisition, yet funding for the construction of 
roads, a critical infrastructure need for rural communities with a 
substantial amount of forest lands like in my district, is reduced by 
$79 million. In addition, millions are cut from fire suppression 
programs and the Forest Health Management Account. I'm concerned these 
budget priorities do not meet the needs of my constituents, and the 
needs of our nation's ailing forests. Proper forest maintenance and 
management is very important to me and my community, particularly in 
light of a tragedy that occurred last year in Coconino County, Arizona.
    As you know, last June, a wildfire destroyed more than 15,000 acres 
of steep terrain in the Coconino National Forest known as the Schultz 
Pass. The wildfire scorched the earth on this steep volcanic terrain, 
leaving little ground vegetation to absorb and hold back rainwater. In 
addition, the unusually high concentration of forest fuels, that had 
built up over decades, ignited and baked the usually crumbly volcanic 
dacite into a crystal-like and impervious substance, which take decades 
to break down enough for grass to grow.
    On July 6th, 2010, the Forest Service Burn Area Emergency Response 
Team issued a report to the residents living near the base of the Peaks 
stating they would face a constant daily flooding threat from summer 
monsoon storms and publically urged them to purchase flood insurance. 
Two weeks later, before insurance could be enacted, nearly two inches 
of rain fell in less than one hour, causing flash flooding in the 
communities downstream from the Schultz wildfire burn area. Widespread 
flooding and debris disrupted and destroyed public infrastructure, 
impacted over 1,500 properties and directly damaged approximately 85 
homes in the community, and claimed the life of a 12-year-old-girl.
    Since the flood, the state, the county, and my community have 
worked to the best of its capabilities to address the effects of last 
summer's flooding. Members of the community have taken desperate 
measures to mitigate short-term flood risks by digging trenches, 
canals, and placing sandbags around their homes. Coconino County spent 
the summer responding to flooding by installing several miles of k-
rails and providing 8,000 sand bags and over 10,000 feet of wattles to 
support resident's efforts to protect their families and their homes. 
In addition, they held community meetings, opened an information center 
to assist property owners, and deployed significant financial 
resources--over $3.5 million to date to repair damaged drainage 
infrastructure and other flood emergency efforts. In total, county and 
state agencies have committed over ten million dollars to respond to 
the initial damages, but officials admit they do not have the resources 
necessary to build enough canals and infrastructure to head off future 
flooding.
    A few weeks ago, engineers presented a plan to officials for a 
system of canals, retention basins and berms built to divert future 
flooding, but estimated it would cost at least $15 million, even before 
the county pays some property owners for the right of way. Local 
entities simply do not have the resources to take the necessary 
measures within the next few months, let alone implement a long-term 
restoration plan. If no support from the relevant federal agencies is 
given to the effort prior to monsoon season, up to 1,200 more homes 
will be at-risk for floods, millions of dollars of more damage will be 
incurred, and more lives will be put in danger.
    My community has a dire need for a coordinated multiagency effort 
to develop, fund, and implement a comprehensive flood mitigation effort 
that includes short-term and long-term measures, on and off national 
forest system lands. I believe BLM Director Abbey has experience with 
this type of interagency cooperation while addressing a similar crisis 
in Carson City as the Nevada State Director of the U.S. Bureau of Land 
Management. My hope is he might be able to provide some insight into 
those efforts later in the hearing. In addition, I discussed the crisis 
in Coconino County with Secretary of Interior Ken Salazar at last 
week's full committee hearing on the President's Budget. The Secretary 
committed to working with Secretary of Agriculture Vilsack and the 
Forest Service to identify possible support the agencies under 
Interior's jurisdiction could provide to the effort. However 
ultimately, it is the Forest Service's responsibility to take action 
and properly address condition on its land, Coconino National Forest.
    I believe the federal government bears a responsibility, if not a 
moral obligation, to assist my community with flood mitigation and 
recovery. Accordingly earlier this week Arizona Senators John McCain, 
Jon Kyl, and I wrote Mr. Tidwell a letter, which I would like to submit 
to the record Mr. Chairman, requesting that during your upcoming visit 
to Arizona you visit the Schultz Pass area and meet with Coconino 
County officials and homeowners in the community to discuss the Schultz 
Fire remediation and flood mitigation efforts
    Coconino County is making progress on developing an engineered 
flood control plan and getting as many parties to the table as possible 
to assist in the efforts but to date, the service has not committed to 
mitigation projects on the national forest, such as diversion channels, 
retention basins, even water barriers constructed by the remains of cut 
burned trees, locked behind existing stumps. It is critical that these 
and other flood mitigation efforts begin immediately, which means the 
Federal Government, and most importantly the Forest Service, must 
utilize all resources at its disposal to mitigate short-term and long-
term flood risks. With lives and property at risk, this matter deserves 
greater federal attention beyond just replanting vegetation and laying 
straw. We have a pending emergency and we need your direct assistance 
now.
    I look forward to further discussing Schultz Pass and other federal 
land management issues today and ultimately working with you to address 
the pressing needs of our nation's public lands.
    Thank you again Mr. Chairman for the opportunity to deliver an 
opening statement.

                                 <all>

</pre></body></html>
